<html>
<title> - CONSUMER CHOICE AND IMPLEMENTING FULL DISCLOSURE IN DENTISTRY</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




     CONSUMER CHOICE AND IMPLEMENTING FULL DISCLOSURE IN DENTISTRY

=======================================================================

                                HEARING

                               before the

               SUBCOMMITTEE ON HUMAN RIGHTS AND WELLNESS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 8, 2003

                               __________

                           Serial No. 108-22

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                                 ______

87-704              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
JOHN SULLIVAN, Oklahoma              C.A. ``DUTCH'' RUPPERSBERGER, 
NATHAN DEAL, Georgia                     Maryland
CANDICE S. MILLER, Michigan          ELEANOR HOLMES NORTON, District of 
TIM MURPHY, Pennsylvania                 Columbia
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN R. CARTER, Texas                CHRIS BELL, Texas
WILLIAM J. JANKLOW, South Dakota                 ------
MARSHA BLACKBURN, Tennessee          BERNARD SANDERS, Vermont 
                                         (Independent)

                       Peter Sirh, Staff Director
                 Melissa Wojciak, Deputy Staff Director
              Randy Kaplan, Senior Counsel/Parliamentarian
                       Teresa Austin, Chief Clerk
              Philip M. Schiliro, Minority Staff Director

               Subcommittee on Human Rights and Wellness

                     DAN BURTON, Indiana, Chairman
CHRIS CANNON, Utah                   DIANE E. WATSON, California
CHRISTOPHER SHAYS, Connecticut       BERNARD SANDERS, Vermont 
ILEANA ROS-LEHTINEN, Florida             (Independent)
                                     ELIJAH E. CUMMINGS, Maryland

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                      Mark Walker, Chief of Staff
                  John Rowe, Professional Staff Member
                  Mindi Walker, Legislative Aide/Clerk
                     Tony Haywood, Minority Counsel



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 8, 2003......................................     1
Statement of:
    Lorscheider, Fritz, professor emeritus, medical physiology 
      and biophysics, University of Calgary; Boyd E. Haley, 
      professor and chair, department of chemistry, University of 
      Kentucky; Maths Berlin, professor emeritus, environmental 
      medicine, University of Lund, Sweden, and past chair, 
      international project of chemical safety, World Health 
      Organization; and Fred Eichmiller, director, American 
      Dental Association Health Foundation, Paffenbarger Research 
      Center, National Bureau of Standards and Technology........     5
    Michaud, Hon. Mike, a Representative in Congress from the 
      State of Maine; Chester Yokoyama, D.D.S., member, Dental 
      Board of California; Sandra Duffy, esquire, founding 
      member, Consumers for Dental Choice Northwest; and Emmitt 
      Carlton, immediate past president, Alexandria, VA Chapter, 
      National Association for the Advancement of Colored People.   114
Letters, statements, etc., submitted for the record by:
    Berlin, Maths, professor emeritus, environmental medicine, 
      University of Lund, Sweden, and past chair, international 
      project of chemical safety, World Health Organization, 
      information concerning an updated risk analysis............    77
    Carlton, Emmitt, immediate past president, Alexandria, VA 
      Chapter, National Association for the Advancement of 
      Colored People, prepared statement of......................   160
    Duffy, Sandra, esquire, founding member, Consumers for Dental 
      Choice Northwest, prepared statement of....................   132
    Eichmiller, Fred, director, American Dental Association 
      Health Foundation, Paffenbarger Research Center, National 
      Bureau of Standards and Technology:
        Consumer choice brochures................................    46
        Prepared statement of....................................    51
    Haley, Boyd E., professor and chair, department of chemistry, 
      University of Kentucky, prepared statement of..............    14
    Michaud, Hon. Mike, a Representative in Congress from the 
      State of Maine, prepared statement of......................   117
    Yokoyama, Chester, D.D.S., member, Dental Board of 
      California, prepared statement of..........................   125

 
     CONSUMER CHOICE AND IMPLEMENTING FULL DISCLOSURE IN DENTISTRY

                              ----------                              


                         THURSDAY, MAY 8, 2003

                  House of Representatives,
         Subcommittee on Human Rights and Wellness,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:16 p.m., in 
room 2154, Rayburn House Office Building, Hon. Dan Burton 
(chairman of the subcommittee) presiding.
    Present: Representatives Burton, Cannon, Watson, and 
Cummings.
    Staff present: Mark Walker, chief of staff; Mindi Walker, 
legislative aide and clerk; Nick Mutton, press secretary; John 
Rowe, professional staff member; Tony Haywood, minority 
counsel; and Teresa Coufal, minority assistant clerk.
    Mr. Burton. The Subcommittee on Wellness and Human Rights 
will come to order. A quorum being present, we will start the 
meeting.
    I ask unanimous consent that all Members' and witnesses' 
written and opening statements be included in the record. 
Without objection, so ordered.
    I ask unanimous consent that all articles, exhibits, and 
extraneous or tabular material referred to be included in the 
record. Without objection, so ordered.
    In the event of other Members attending the hearing, I ask 
unanimous consent--we may have other members who would like to 
serve as ex officio members of the subcommittee today, and if 
they come and would like to participate, we will allow them to 
do so. Without objection, so ordered.
    Let me start off by saying that we began an investigation 
of mercury in medical and dental devices in 1999. Our early 
activities focused primarily on Thimerosal in childhood 
vaccines, and we quickly recognized a no-win situation for many 
children and their families.
    The government mandates that all children be sent to 
school. The government mandates that all children get a series 
of vaccinations before they go to school, but sometimes things 
go awry when conscientious families follow these government 
mandates.
    For far too many years, mercury has been used as a 
preservative in almost all childhood vaccinations. As the 
mandatory number of shots that children had to get before they 
could attend school increased, more and more mercury got pumped 
into their little bodies in shot after shot.
    For an alarming number of children, the consequences were 
tragic. Many kids, including my grandson Christian, got many 
times the supposedly safe dosage of mercury that adults can 
tolerate from their shots. As a result, Christian became 
profoundly autistic almost overnight. Unfortunately, the 
tragedy that struck my own family has been repeated over and 
over again throughout the United States.
    Sadly, autism has become an epidemic of outrageous 
proportions; 1 child in 10,000 in the United States used to be 
autistic, and now it is as many as 1 out of 250 and in some 
areas of the country it is 1 out of 150. So it is an absolute 
epidemic.
    This epidemic is continuing to worsen at an alarming rate, 
growing by as much as between 10 and 17 percent each year. What 
did our Federal health agencies do while the autism epidemic 
spun out of control? They delayed, denied, and alibied.
    Specious arguments were thrown up about safe levels of 
mercury that people should be able to tolerate. Silly 
mathematics were used to claim that somehow the mercury in a 
shot is mysteriously absorbed by the body over an extended 
period of time, such as 180 days, so that the theoretically 
daily safe dosage would not be violated.
    For years, groups that should have been safeguarding our 
children kept chanting the refrain that there is insufficient 
evidence to establish a causal relationship and there is 
insufficient evidence to disprove a causal relationship. ``We 
need to study it. Send us more money.'' And they studied it on 
and on and on, and the kids continued to become sicker and 
sicker and have neurological problems.
    There was argument after argument about ethyl mercury 
versus methyl mercury versus elemental mercury, but all of that 
was bogus. There are different routes by which mercury gets 
into the human body. There are different rates of absorption, 
but all of it accumulates to some extent, and all of it hurts 
us, and, worst of all, it really hurts the kids.
    Just last week, when talking to a group of congressional 
aides in the Dirksen Senate Office Building, noted pediatrician 
Dr. Kathleen Shay said, ``All forms of mercury are toxic. It is 
a poison in all of its forms. There is no good mercury.'' Most 
profoundly of all, Dr. Shay emphasized that mercury damage 
lasts a lifetime, and she stated, ``You can't take a pill to 
fix it.''
    Just last Saturday, in Chicago, Dr. Mark Geier, M.D., 
Ph.D., and Dr. David Geier announced the results of a search of 
about 1,500 articles, not 10 or 15, but 1,500 articles on the 
adverse effects of Thimerosal in various medical products. 
Their conclusion was that a causal relationship exists between 
mercury from Thimerosal in childhood vaccinations and neuro-
developmental disorders. Our Federal health agencies haven't 
been able to find a causal relationship, but the Geiers found 
1,500 articles that discussed the exact kind of relationship 
that exists.
    Dr. Boyd Haley, who is here to testify today, also was in 
Chicago last Saturday, and he delivered a well-researched 
science-based paper laced with common sense in discussing the 
sources of heavy metal poisoning that lead to autism and 
Alzheimer's disease, and he stated, ``The ones that stood out 
were mercury from dental amalgams and vaccinations where 
Thimerosal was used as a preservative.''
    Dr. Haley mentioned dental amalgams, and that brings us to 
today's subcommittee hearing. Last fall, we expanded our 
investigation to include the mercury-containing dental filling 
material called amalgam. Although those fillings typically were 
called ``silver'' because of their color, in actuality, they 
contain 50 percent or more mercury by weight.
    In an attempt to lay a solid foundation of fact, we held a 
hearing on November 14, 2002 entitled, ``Mercury in Dental 
Amalgams: An Examination of the Science.'' A panel of 
distinguished scientists and researchers, including Dr. Haley, 
made a good-faith effort to do exactly that, discuss the 
science, and we learned a great deal from them.
    A representative of the American Dental Association and 
representatives of two Federal health agencies also appeared 
before the committee, but they seemed more inclined to share 
anecdotal evidence rather than solid science. Amazingly, none 
of those three individuals was aware of a single study, they 
didn't know of a single study that contradicted their oft-
repeated refrain that mercury-containing amalgams are safe and 
effective. They had heard of no study that pointed to health 
problems, not even one.
    But today you will hear a different story and testimony 
from Dr. Maths Berlin from Sweden. Dr. Berlin is a former Chair 
of the World Health Organization's International Project on 
Chemical Safety. So he is not some schlock that we brought in 
here. He knows what he is talking about.
    He and his colleagues in Sweden identified 936 scientific 
papers that dealt with the health implications of amalgam. They 
found that over 700 of those studies were credible. Now our 
health agencies can't find one. He found over 700.
    But, as a result, as recently as last week, on April 28th 
to be exact, the ADA hand-delivered a letter to every Member of 
Congress that said, ``Amalgam has been the subject of numerous 
rigorous scientific studies and none has revealed any credible 
evidence that dental amalgams are unsafe.''
    Later on in the questioning, I want to show you some of the 
things that they have put out that show how to dispose of 
amalgams because they are not safe. I don't understand that, 
but we will get to that later.
    Swedish scientists know about hundreds of such studies, but 
the American Dental Association, that represents over 147,000 
American dentists doesn't know about a single one. Apparently, 
scientists at the FDA and NIH don't know about one either.
    Does something sound familiar here? Our health agencies 
can't make the connection between Thimerosal and autism, but 
the Geiers found 1,500 articles on the adverse effects of 
Thimerosal.
    I will finish my statement and then we will recess. Five 
votes? Well, I will finish my statement, and then you folks can 
have a cup of coffee before we get back because it is going to 
take us about 30 or 40 minutes before we get back here.
    Our Federal health agencies can't make the connection 
between mercury and dental amalgams and any adverse health 
events, but Swedish scientists found over 700 credible 
articles. I hope everyone charged with safeguarding the health 
of the American people is listening.
    As chairman of this subcommittee, you need to know that we 
are not going to go away. This subcommittee is not going to 
leave, and these issues are not going to go away, at least not 
until they are thoroughly discussed and dealt with by the 
appropriate government institutions.
    We are going to have another science-based discussion today 
with world-class researchers. We will delve into whether the 
ADA believes in full disclosure and truth in labeling or 
whether those who accuse them of imposing a gag rule that 
inhibits open discussions with patients about mercury are 
correct.
    We will hear about another no-win situation facing many 
American children from economically disadvantaged families. 
With very few exceptions, government health programs will only 
pay for mercury-containing amalgam fillings. If indigent 
families want to get their teeth fixed, they will get mercury 
put into their mouths.
    In closing, I would like to quote from Dr. Charles V. 
Chapin, who lived from 1856 to 1948 and was Harvard-educated 
and renowned for his work in Providence, RI. Many consider him 
to be the godfather of the public health movement.
    When discussing the need to abandon old ways and old ideas 
of doing things and to embrace the new, he easily could have 
been talking about the objectives of this hearing when he said, 
``Science can never be a closed book. It is like a tree, ever 
reaching new heights. Occasionally, the lower branches no 
longer giving nourishment to the tree slough off. We should not 
be ashamed to change our methods. Rather, we should be ashamed 
never to do so.''
    So I would just like to say, while we take this little 
break, to my friends at the health agencies, there are 1,500 
articles that we know of that talk about the threat to human 
beings from amalgams and mercury in dental fillings. The 
scientists from Sweden found 700 articles that are credible, 
and I cannot figure out why our health agencies can't find one, 
and we will put that question to them when we return.
    So we will stand in recess for probably about 25 or 30 
minutes. I apologize for the delay, but the work of government 
has to go on the floor, and I will be back in a little bit. We 
stand in recess.
    [Recess.]
    Mr. Burton. First of all, I want to apologize for being 
gone so long.
    Hey, there's my dentist back there. How are you?
    First of all, I am sorry we took so long. Unfortunately, we 
had no control over that.
    We will go ahead and bring the first panel up. When 
Representative Watson comes back or Representative Cannon, we 
will let them make some brief opening remarks, if they choose 
to do so. But, in the interim, so we can go ahead and expedite 
this thing, why don't we bring Dr. Lorscheider, Dr. Haley, Dr. 
Berlin, and Dr. Eichmiller before the committee. I will swear 
you in, and then when they return, we will get on with that.
    [Witnesses sworn.]
    Mr. Burton. Have a seat.
    I think while we are waiting, if you would like, we will go 
ahead and start the testimony with Dr. Lorscheider because I 
know it has been a long day and I don't want to keep you here 
an unnecessary length of time.
    Dr. Lorscheider.

 STATEMENTS OF FRITZ LORSCHEIDER, PROFESSOR EMERITUS, MEDICAL 
   PHYSIOLOGY AND BIOPHYSICS, UNIVERSITY OF CALGARY; BOYD E. 
HALEY, PROFESSOR AND CHAIR, DEPARTMENT OF CHEMISTRY, UNIVERSITY 
 OF KENTUCKY; MATHS BERLIN, PROFESSOR EMERITUS, ENVIRONMENTAL 
     MEDICINE, UNIVERSITY OF LUND, SWEDEN, AND PAST CHAIR, 
    INTERNATIONAL PROJECT OF CHEMICAL SAFETY, WORLD HEALTH 
 ORGANIZATION; AND FRED EICHMILLER, DIRECTOR, AMERICAN DENTAL 
 ASSOCIATION HEALTH FOUNDATION, PAFFENBARGER RESEARCH CENTER, 
          NATIONAL BUREAU OF STANDARDS AND TECHNOLOGY

    Mr. Lorscheider. Thank you, Mr. Chairman.
    Beginning 1985, a number of published papers from my 
laboratory, and subsequent papers from laboratories of other 
medical scientists have focused on the metabolism, toxicology, 
and pathophysiology of mercury with specific reference as a 
component of dental amalgam tooth fillings.
    These papers have employed human clinical studies, also 
experimental animal models, and in some cases cell culture 
systems. Numerous peer-reviewed publications have unequivocally 
concluded and established that amalgam mercury is continuously 
released as vapor into the mouth. It is then inhaled, absorbed 
into both adult and fetal body tissues, oxidized to ionic 
mercury, and, finally, covalently bound to cell proteins.
    So we do understand the body uptake, the tissue 
distribution, and excretion of amalgam mercury in some detail, 
and, indeed, these various routes and pathways for amalgam 
mercury are significant. Research evidence does not support the 
notion of amalgam safety because both organ system and cell 
function, as I am going to show you, are altered due to this 
mercury exposure.
    An extensive review of the relevant literature is contained 
in the attached invited review which I have submitted to the 
subcommittee. This is a commissioned, invited review by the 
editors of the FASEB Journal. That is the Federation of 
American Societies for Experimental Biology here in Bethesda, 
MD.
    Beginning in 1995, several laboratories, including my own, 
began to focus on brain concentration of mercury, including 
amalgam mercury, and the effects on both neuronal function in 
experimental models and also neural behavioral effects in 
humans in both biochemical evidence and whole mammalian brain 
and, more recently, as I am going to show you, visual evidence 
with neuron cell cultures clearly demonstrate the molecular 
mechanisms whereby very ultra, low levels of mercury exposure 
will initiate neuronal degeneration.
    If we could have the film now, please?
    [Video shown.]
    Mr. Lorscheider. Just a couple of concluding comments 
regarding this film. I think it should be pretty evident that 
medicine clearly does now understand how mercury exerts its 
toxic effect on neural cell membranes.
    The video film that has been displayed here, the amounts of 
mercury that were used in these experiments are approximately 1 
million times less than the average daily dose of mercury 
absorbed due to dental amalgam mercury exposure, and also more 
than a million times less than four vaccine shots containing 
Thimerosal. So we are talking in order of magnitude here of 10 
to the minus 6 less mercury concentration than what the average 
daily dose of an amalgam is.
    My final comment about this film is that this film is an 
integral component of the data of a paper that we published in 
a British journal, Neural Report, in the year 2001. 
Consequently, this is another refereed paper. This paper was 
adjudicated by Oxford and Cambridge neuroscientists. The data 
was also presented for the first time at the University of 
Oxford, and the contents of that film received the same peer 
adjudication as did this paper, and I have provided a copy of 
this paper for the committee.
    Thank you very much.
    Mr. Burton. Well, we appreciate that very much, Doctor, and 
we have shown that film a number of times. If only people would 
pay attention, but, unfortunately, we haven't broken through 
that thick cranium that exists over at our health agencies.
    Ms. Watson would like to make a couple of opening comments, 
and then we will go to you, Dr. Haley.
    Ms. Watson. Thank you, Mr. Chairman. I would like to 
commend you for your leadership and hard work on this important 
issue.
    Last Congress you joined with me and co-authored H.R. 4163, 
the Mercury in Dental Filling Disclosure and Prohibition Act. 
It is a true testimony to your dedication and concern for the 
public's well-being.
    In the 108th Congress, we have not only reintroduced our 
bill, recently numbered H.R. 1680, but now serve as the 
chairman and ranking member, respectively, on a subcommittee 
that addresses human rights and health issues.
    Mr. Chairman, you have set the tone for this subcommittee, 
garnering not only bipartisan support, but tripartisan support 
in the first human rights and wellness hearing regarding drug 
reimportation. I look forward to serving on this subcommittee 
under your leadership.
    I would like to thank our panelists for taking the time to 
share important information with us today. I appreciate that 
each one of you has traveled to Washington from many different 
areas of the United States, but I must give a special thank you 
to Dr. Berlin for his journey all the way here from Sweden.
    As the former Chair of the California Senate Health and 
Human Services Committee for 17 years, I received constant 
testimony as to the status of the health of Californians, 
especially the lower socioeconomic sector of our population 
there. One issue that stood above others was the use of mercury 
in dental fillings.
    Dentists have stood behind a long history of utilizing 
mercury. However, a long history of use is no excuse. Mercury 
in any form is as much of a health risk as lead paint and 
asbestos.
    Mercury is being taken out of other health care products, 
including disinfectants, thermometers, childhood vaccines, and 
even horse medicine. Mercury is a highly neurotoxic substance 
that has genetic effects on biological organisms, as you just 
saw.
    Mercury must be removed from the last known use in the 
human body. Now it is hoped that this hearing will focus 
primarily upon new information relating to possible health 
implications of mercury in the human body, and upon disclosing 
adequate information to patients, to enable them to make 
informed choices about the type of dental restorative material 
that is used in their mouths.
    The science presented by Dr. Lorscheider--I hope I 
pronounced that right--and Dr. Haley and Dr. Berlin is 
important information that should be highlighted in the public 
domain. Dr. Berlin will present, I guess already has, a 
conclusion from his research that states, with reference to the 
fact that mercury is a multipotent toxic with effects on 
several levels of the biochemical dynamics of the cell; amalgam 
must be considered to be an unsuitable material for dental 
restoration. This is especially true since fully adequate and 
less-toxic alternatives are, indeed, available.
    The American public has the right to know. Consumers are 
often given disinformation instead of information. To hide the 
fact that mercury is the major component of amalgam, the ADA 
promotes the fillings as silver. I find that most consumers do 
not know amalgams contain mercury. We are keeping the 
information away from them.
    States are trying to address this problem with statutes, 
but dental boards and other regulators are not implementing 
these laws. Proposition 65 in California adopted in 1986 took 
17 years to apply to dental offices. Finally, in December 2002, 
dentists received a mandate from the court instructing them to 
post signs that warn that mercury fillings may cause birth 
defects and other reproductive harm.
    In 1992, I wrote a law, section 1648.10 of the California 
State Business and Professions Code, that mandated a fact sheet 
be produced by the California State Dental Board stating the 
risks and efficacies of dental materials. Over the next 9 
years, the board did not comply. I am pleased to report that, 
when Governor Davis got in office, he installed a new 
California Dental Board, and one of those board members is here 
today.
    The new board held hearings on the safety of mercury 
fillings in 2002, but has, again, bogged down as the California 
Dental Association argues against effective disclosure of risk. 
You know, I would think that dentists would want to opt on the 
side of reducing risk, not preaching about assessibility. If we 
know a toxic is being used, how could a medical professional 
not want to tell his or her patients?
    So I applaud the efforts of Representative Mike Michaud in 
Maine to produce a fact sheet, and I appreciate the testimony 
of Dr. Chet Yokoyama, a mercury-free dentist and a member of 
the California Dental Board, because the public has a right to 
be informed and to make an informed choice.
    Regrettably, the American Dental Association has the 
provision in its Code of Ethics to stop dentists from 
initiating communications with patients about the risk of 
mercury dental filling. If there is anyone here from the ADA, I 
wish you would meet me outside and explain to me why that 
provision is in your Code of Ethics.
    This gag rule has, unfortunately, been enforced by many 
dentist-dominated State dental boards. I am happy to report 
that the attorneys general of Iowa, Oregon, and Minnesota have 
directed that the ADA gag order may not be enforced in their 
States.
    The dental board in my home State of California repealed 
its gag rule in 1999. Now it is time for the American Dental 
Association to stop preventing dentists from disclosing to 
patients the risk about amalgam, and it is time for every State 
dental board to stop enforcing this gag rule. Oregon attorney 
Sandra Duffy I hope will provide the insight into the 
ramifications of the gag rule.
    Increased attention to mercury risk is apparent around the 
Nation, and I am pleased to inform you that the National 
Convention of the NAACP endorsed H.R. 4163. Also, the National 
Black Caucus of State Legislators has called for legislation to 
protect children and pregnant women from mercury dental 
fillings.
    At the low and moderate end of the economic spectrum, no 
choice exists. Upper-income consumers are increasingly choosing 
non-toxic alternatives, and low-income families are generally 
forced to choose mercury fillings or no fillings at all. 
Alternatives to mercury-based dental fillings exist. Porcelain 
and resin fillings, for example, but many publicly and 
privately financed health plans do not allow consumers to 
choose alternatives to mercury amalgam fillings.
    Medicaid should pay for the alternative and not pay for a 
substance that contains the toxic mercury. At the moment, two 
States are trying to change the Medicaid system through 
legislation, California Assemblyman Jerome Horton and Arizona 
Representative Carol Johnson, and they are both from different 
parties. Both bills have strong community support.
    Emmitt Carlton, the immediate past president of the NAACP, 
Alexandria, VA chapter, is here to provide a perspective on 
choice.
    So, Mr. Chairman, I look forward to the testimony of the 
ADA and everyone on the panel today, and I am pleased to have 
the opportunity to be able to hear scientific and regulatory 
testimony on this issue. So, again, I thank you for your 
leadership and your hard work, and I yield back my time, Mr. 
Chairman.
    Mr. Burton. Well, we will keep working until we get the 
facts out and the American people do know all the nuances of 
this issue.
    Next, we will hear from Dr. Boyd Haley. He has become a 
friend of mine over the years. Dr. Haley, he is a professor and 
Chair of the Department of Chemistry at the University of 
Kentucky, and he will advance our science-based information on 
this important topic. He will show a PowerPoint presentation 
with us, is that right?
    Mr. Haley. I would welcome the appointment of a blue ribbon 
biomedical science committee to look at the information and the 
science that has been presented to this committee. I am very 
confident of what I say, and I think if anybody looks at the 
science, that they will dispel right away the attitude that 
there is no science backing up the toxicity of amalgam 
fillings. It is incredible that statement would be made.
    What I am going to do today is address the synergistic 
effects of other heavy metals on mercury toxicity. I think this 
is something that appears to have been ignored primarily not in 
the literature, but in addressing the level of toxicity of 
mercury and the fact that you can't say what level of mercury 
is toxic, if you don't know the level of lead in a person.
    Now could I have the first slide? This slide here is an old 
slide, 1978. What it says in there is that the administration 
of essentially no response level, an LD1 of mercury solution, 
along with one-twentieth of an LD level of lead salt killed all 
the animals in this study. It was a rat study.
    What this is telling you, that it should have been one plus 
only zero, equaling one. Instead, when you mix lead and mercury 
exposure, you get a dramatic enhancement of the toxicity of the 
mercury. This is what we are going to talk about. This is not a 
new phenomena. This has been known for many, many years.
    They made a conclusion that the combination of synergism 
was most toxic when the member was present and near its LD1 
dose. You get a tremendous--and I will give you examples of 
this in some of the later slides.
    Can I have the next slide? The next slide is just something 
to say that it is not just one paper that said this. I have 
several papers. Again, they were 1973 and 1972. Why this has 
been ignored when we are discussing the medical effects of 
mercury from dental amalgams, because if you remember the 
newspaper articles just recently, they are showing that very, 
very low levels of lead previously considered non-toxic are 
injuring the IQ or the learning ability of children. I would 
submit to you that most likely what they are not looking at is 
the level of mercury with the level of lead that is in these 
children.
    Could I have the next slide? This is a study that is coming 
out in the International Journal of Toxicology, and it concerns 
the mercury level in the birth hair of autistic versus control 
children. On the top slide, the top line--it is not going to 
show up this far away--on the top line you see going up, that 
is a plot of the increase in mercury in the birth hair versus 
the number of amalgam fillings in the birth mother. In control 
children, it increases, and when you get above 10, it goes up 
quite high.
    If you look at the autistic children--they are on the 
bottom line--there is absolutely no change in the mercury in 
their birth hair. They do not excrete the mercury. The easiest 
explanation for this is that they retain it in their bodies, 
and that is based on the data by a lot of other people that, if 
you challenge them with a mercury challenge test, that they 
contain hundreds of times more heavy metals in their body than 
do control children. So they do not handle the exposure to 
mercury that is from Thimerosal nearly as well or from amalgam 
fillings that their mother has as do control children.
    So this identifies a subset of the population that exists 
that cannot excrete chronic, low-level doses of mercury. It 
builds up in their body, and if they are a child, it probably 
enhances their chances of becoming autistic.
    Could I have the next slide? If we look at the level, on 
the far left, those are children who have mild autism; in the 
center it is moderate, and then to the right it is severe. The 
green represents the males, and you realize that they are the 
preponderance of the patients, the subjects. The black are the 
females.
    What you see is that, as the severity of disease increases, 
the level of mercury in the birth hair decreases. I have done 
some research, not my research but literature research, and you 
find the same phenomena in Alzheimer's disease, in that 
Alzheimer's nail tissue, fingernail tissue, has less mercury in 
it than does that of age-matched controls. As the severity of 
the disease increases over a period of time, the level of 
mercury drops. So they represent also another group of people 
that appear to have lost the ability to excrete mercury, 
because if you can't excrete it, it doesn't get into the blood. 
If it doesn't get into the blood, it doesn't get into the hair, 
the nails, the feces, or the urine.
    So we have to look at this. This is a good lead, I think, 
on the causation of a lot of these diseases.
    Could I have the next slide? This is an example of the 
synergism with regard to Thimerosal with neurons in culture. If 
we see at the top, we can keep neurons alive with very little 
death rate for about 24 hours. You will see the one slide there 
in the center where it says, ``50 nanomole'' or 50 times 10 to 
the minus ninth lower levels of Thimerosal.
    A vaccine contains 125,000 nanomole levels of Thimerosal. 
When we add to that, if you look where we have the red, I will 
just talk about a couple of them. If we add aluminum alone, it 
is only slightly toxic, and the Thimerosal at this time has 
killed less than 5 percent of the neurons. But if we mix those 
two together, we end up at the same time point killing 60 
percent of the neurons. So the aluminum in the vaccine along 
with the Thimerosal has a synergistic effect on Thimerosal 
toxicity causing it to be much more toxic.
    The second part that I want to talk about is the effect of 
testosterone. There was a study done in England where they 
found that in the amniotic fluid of mothers that gave birth to 
autistic children, they had one aberrancy, and that aberrancy 
was they had exceptionally high levels of testosterone, meaning 
the children, when they were born, were probably carrying high 
levels of testosterone or higher than the normal children.
    When we added testosterone along with the Thimerosal in 
this culture, all the neurons were dead within 3 hours. Nothing 
else did this. This is a tremendous enhancement of the toxicity 
of Thimerosal by testosterone, and this probably explains why 
boys are 5 times or 4 times more likely to get this disease and 
why they are probably 10 times more likely to have severe cases 
of autism. It depends upon the level of the male hormone in 
their body, and that is a genetic factor that none of us have 
control over.
    I think this is a perfect example of the synergism and why 
we cannot say what is a safe level of mercury. Aluminum, 
testosterone, and I would also point out antibiotics have the 
same effect, certain antibiotics.
    Could I have the next slide? I am trying to get through 
something that is rather complex. Dr. Lorscheider presented his 
film, and this is a technology that most of you won't know 
about called photo affinity labeling that I invented when I was 
a post-doc at Yale. But you can see the sign that says, ``beta-
tubulin.'' That big, black spot there tells you that tubulin is 
very viable. It is alive and working well in this brain tissue.
    When you add Thimerosal, especially Thimerosal that has 
been exposed to UV light to enhance the breakdown to ethyl 
mercury, you see you totally wipe out its ability to interact 
with the probes it has to interact with to polymerize. This 
fits into exactly what we see with mercury. We get the same 
effect, and this is more complex than that, but I think it 
points out that mercury from dental amalgams and mercury from 
Thimerosal both affect the same protein that you saw cause the 
complete dissembly of the axons in Dr. Lorscheider's film.
    Could I have the next slide? This is the effect we see with 
mercury in Alzheimer's or control brain. On the left two panels 
you see two AD subjects, and you see that the tubulin--it is 
kind of hard to see from this distance, but there is no photo 
labeling of tubulin. When you get to where that red arrow is on 
the right hand side, you see the two controls at the zero 
level. The tubulin is there; it is very viable. When you add a 
little bit of mercury to it, to the control brain, you make it 
have the same photo labeling profile as the Alzheimer's-
diseased brain.
    I think that, at the very least, anyone looking at this 
data would assume that having 50 years of a lot of mercury 
circulating in your blood from your amalgams would make you 
cross that thin red line into Alzheimer's disease quicker 
because mercury affects the same protein that is dramatically 
affected in Alzheimer's disease.
    There is more than one protein like that, and it is very 
simple biochemistry to explain to someone that understands 
protein chemistry. That is the reason I would like to have a 
blue panel or biomedical group look at it instead of 
Congressmen.
    Could I have the next slide, please? There is something 
unique about mercury that scientists, even a lot of scientists 
were shocked by this, and even I was also. You cannot prevent 
mercury toxicity by chelating it with normal compounds that 
exist in the body or that are made to protect people from heavy 
metal toxicity.
    This is an audioradiograph where we have tried to chelate 
the toxicity of a lot of the metals away with the compound 
called ethylene diamine tetra-acidic acid [EDTA]. EDTA 
prevented the toxicity of all the heavy metals, and I would 
point so will citrate, so will glutamate, so will silver or 
other chelators. However, all of those chelators enhance the 
toxicity of mercury. They do not prevent it.
    So mercury is unique that, when it gets into your brain 
with a lot of chelators that would be there naturally to 
protect you from heavy metal toxicity, it does not work with 
mercury. It is singularly exceptional in that aspect, and we 
published this back in 1988.
    Could I have the next slide? There is this question: Is 
mercury released from dental amalgams? I think this is 
something that is absolutely absurd that we would be discussing 
this today because it is very simple to measure mercury coming 
off of a rock, and that is what we talked about the last time.
    In this particular study, it was done at the University of 
Singapore, and that is the reason I think this is unique. They 
showed that this one form of amalgam--and it is high in 
mercury; it has got 66 percent mercury instead of 50 percent--
that it released it at 43 micrograms per centimeter squared per 
day. But what bothered me, that this had to be done at the 
University of Singapore, that it wasn't done at a U.S. 
university or at the NIH.
    We have repeated the study using the same technique that 
these people used on dispersal alloy, which is the normal one. 
While it is not this high, it is definitely much higher than 
what the ADA spokesmen say comes off of an amalgam. If you 
brush 30 seconds twice a day with a toothbrush, the level went 
up over ten-fold. So brushing amalgams causes a dramatic 
increase in the amount of mercury that is released.
    Further, the study by NIH on 1,127 American military 
personnel, they showed that people with increasing number of 
amalgams had the increasing amount of mercury body burden. So 
we are not getting mercury in our bodies primarily from eating 
fish or breathing the air. It is coming primarily from amalgam 
fillings, in much of the population at least.
    Could I have the next slide? Are amalgams toxic? If you 
take an amalgam made outside the mouth and drop it in a mil of 
water and you soak it for various periods of time, you take a 
sample of that, and if you add the same tests that we have been 
doing now or were reported earlier, you get the same effect. 
Within 1 or 2 hours, that solution of water will be toxic, and 
you can't tell the difference between adding it and adding a 
solution of mercury to a control brain. It inhibits the same 
protein that is primarily inhibited in Alzheimer's disease. So 
I can't believe that anybody would say amalgams are not toxic. 
This is backed up by other data.
    Could I have the next slide? This is a report that 
described amalgam dispersal alloy. It was severely cytotoxic 
initially when Zinc released was greatest, but was less toxic 
when the Zinc came out. I would point out that Zinc is a trace 
element in amalgam fillings.
    Zinc is something that cells need to live, and why they 
would tie this onto Zinc, you know, is kind of unusual to me, 
why they didn't talk about the mercury levels in these studies. 
We will address that in the next slide.
    At the bottom you can see that another thing supporting the 
amalgam removal is it decreases the mercury body burden of 
mercury, the amount of mercury that is circulating in the 
blood.
    In this study, we are looking again at the effect of 
mercury on the tubulin, the same protein that Dr. Lorscheider 
showed was disrupted. Using our technology, you can see the top 
line is Zinc. You have to go to high concentrations of Zinc to 
see any kind of effect.
    The second line is mercury alone. But if you take the two 
levels of Zinc and mercury, where we see less than 5 percent 
and less than 6 percent, if you put them together, you see over 
70 percent inhibition of the tubulin. That is the synergistic 
toxicity, and that is the reason why in that earlier study they 
said it was most toxic when Zinc release was greater. The Zinc 
potentiates the toxicity synergistically of mercury that is 
coming out of the same amalgam, because Zinc alone is not toxic 
to cells. Cells absolutely need Zinc, unless you go to high, 
really high concentrations. You will notice these 
concentrations aren't very high.
    Could I have the next slide? This is something that I think 
that I can't imagine why Congress ignores this, but this was 
reported in the Journal of American College of Cardiology, and 
it showed that children that die with idiopathic dilated 
cardiomyopathy have 23,000 times more mercury in their heart 
tissue than do people who die of other forms of cardiac arrest.
    Most of these people, some of them have died in southern 
Indiana. One of them was a young man that was in a high school 
basketball tourney that was coming to UK to play basketball.
    How do you account for that much mercury? I would submit 
that people in the inner city and people in southern Indiana 
don't eat a lot of shark. So you have to at least ask the 
question, where did the mercury come from and why is it 
building up in these children, and why specifically these 
children?
    It points out that, while many of us can have amalgam 
fillings and live for a long time and not have any problems, 
there is a subset of the population, and maybe several subsets, 
that cannot handle exposure to this. That is reason enough to 
get rid of them.
    Could I have the next slide? These are just the 
conclusions, and you can read them as well as I can. But what I 
would point out is the take-home lesson: One, there is a subset 
of the population that appears unable to excrete mercury. This 
can be due to several things. It can be a genetic 
susceptibility. It can be the fact that they are exposed to 
other heavy metals that prevent this. It could be a fact that 
they may be exposed to antibiotics or pesticides or something 
else that prevents them from excreting the mercury properly.
    We don't have to know exactly what it is. We can 
investigate and find out, but it says you can't say what is 
safe with regard to mercury, and the thing to do is just to try 
and decrease all exposures to this material.
    I think that is probably the end of it. Having an 
appreciation for the synergism is something I would like to 
emphasize today.
    [The prepared statement of Mr. Haley follows:]

    [GRAPHIC] [TIFF OMITTED] T7704.001
    
    [GRAPHIC] [TIFF OMITTED] T7704.002
    
    [GRAPHIC] [TIFF OMITTED] T7704.003
    
    [GRAPHIC] [TIFF OMITTED] T7704.004
    
    [GRAPHIC] [TIFF OMITTED] T7704.005
    
    [GRAPHIC] [TIFF OMITTED] T7704.006
    
    [GRAPHIC] [TIFF OMITTED] T7704.007
    
    [GRAPHIC] [TIFF OMITTED] T7704.008
    
    [GRAPHIC] [TIFF OMITTED] T7704.009
    
    [GRAPHIC] [TIFF OMITTED] T7704.010
    
    [GRAPHIC] [TIFF OMITTED] T7704.011
    
    [GRAPHIC] [TIFF OMITTED] T7704.012
    
    [GRAPHIC] [TIFF OMITTED] T7704.013
    
    [GRAPHIC] [TIFF OMITTED] T7704.014
    
    [GRAPHIC] [TIFF OMITTED] T7704.015
    
    [GRAPHIC] [TIFF OMITTED] T7704.016
    
    [GRAPHIC] [TIFF OMITTED] T7704.017
    
    [GRAPHIC] [TIFF OMITTED] T7704.018
    
    [GRAPHIC] [TIFF OMITTED] T7704.019
    
    [GRAPHIC] [TIFF OMITTED] T7704.020
    
    [GRAPHIC] [TIFF OMITTED] T7704.021
    
    [GRAPHIC] [TIFF OMITTED] T7704.022
    
    [GRAPHIC] [TIFF OMITTED] T7704.023
    
    [GRAPHIC] [TIFF OMITTED] T7704.024
    
    [GRAPHIC] [TIFF OMITTED] T7704.025
    
    [GRAPHIC] [TIFF OMITTED] T7704.026
    
    [GRAPHIC] [TIFF OMITTED] T7704.027
    
    [GRAPHIC] [TIFF OMITTED] T7704.028
    
    [GRAPHIC] [TIFF OMITTED] T7704.029
    
    Mr. Burton. Thank you, Dr. Haley. We will get back to you 
with questions in a little bit.
    Dr. Berlin, thank you very much for coming that long way to 
be with us, and you are recognized.
    Dr. Berlin. Thanks for calling the hearing. I am not going 
to present any primary research data. I will stick to 
conclusions here, the environmental medicine view on this 
problem.
    As has been said, mercury vapor is a potent toxin which is 
released from amalgam fillings and that was accumulated in the 
brain of the bearer and also the brain of the fetus. It is 
important to stress here that I talk about mercury vapor; 
actual mercury like Thimerosal and methyl mercury behave 
differently in the body. Also, bivalent mercury, like mercury 
salt, also behaves differently. So that is just mercury vapor 
we are now discussing.
    In fact, amalgam is the dominating source of mercury in the 
brain of the population. There are populations with high fish-
eating habits which may come up to a number of mercury 
concentration in the brain which is close to this, which 
amalgam is close.
    There is a correlation between number of amalgam fillings 
and mercury concentration in the central nervous system of the 
bearer and also a correlation between mercury concentration in 
the brain of the newborn and the mother's number of amalgam 
fillings.
    The mercury concentration range in the brain of the fetus 
with an amalgam-bearing mother is similar to the concentrations 
that result in a gross effect in tissue cultures of animal 
brains, like Dr. Lorscheider mentioned.
    Although a percent of available information is insufficient 
to allow risk assessment in terms of prevalence figures, the 
risk of inhibiting effect of mercury from amalgam on brain 
development is obvious. There is a number of animal experiments 
and tissue studies showing the effect on the nervous system of 
mercury vapor.
    Until proven otherwise, it is necessary to assume that 
mercury vapor released from amalgam can cause retardation of 
brain development. Consequently, amalgam should not be used for 
dental restoration in women of child-bearing age or in 
children.
    Considering the potent nature of the mercury molecule with 
many possible targets in the body, it is likely that mercury 
can cause serious side effects in a fraction or a subset of the 
population with deviating higher sensitivity to mercury for 
genetic reasons.
    Such people with deviating sensitivity have recently been 
identified. Physicians and dentists have in the past tended to 
disregard or even deny this possibility, resulting in suffering 
of patients. It is important that more awareness of this fact 
develop within the medical profession and that more attention 
is given to this possibility in unclear cases of illness.
    It will require clinical research, systematic clinical 
research, on this problem to elucidate the mechanisms involved 
and possible diagnostic methods.
    Finally, I will say that it is my opinion, and that has 
been mentioned already, that amalgam is not a suitable material 
for dental restorations. It was defendable 20 years back in 
time; it was true that most people with amalgam in the mouth 
don't have any problems, don't show any health effects, but in 
a small fraction of the population, an estimated or an informed 
guess results in more than 1 percent of the population is 
likely to see side effects like that, and because we have not 
really established amalgam populations, which I think excludes 
prevalence of effects over 10 percent, 10 to 20 percent.
    But, today, as mentioned, there are other alternatives, 
less toxic ones, and our learning is much more developed in 
terms of the effects of mercury vapor on the nervous system. 
Therefore, today the only reasonable thing to do is to use less 
toxic alternatives for dental restoration material.
    Mr. Burton. Thank you, Dr. Berlin. I will get back to you.
    Now I didn't mention this when I introduced you, but you 
are the past chairman or Chair of the International Project of 
Chemical Safety of the World Health Organization, is that 
correct?
    Dr. Berlin. No.
    Mr. Burton. No, it is not correct?
    Dr. Berlin. No. Well, I was the chairman of that expert 
committee which finalized the criteria document for inorganic 
mercury in 1990, 1991, the two criteria documents, one for 
inorganic mercury and one for methyl mercury.
    Mr. Burton. Was that with the World Health Organization?
    Dr. Berlin. Yes, the World Health Organization, through 
ITCS.
    Mr. Burton. OK.
    Dr. Berlin. I have an activity, they use reviews and 
assessment of the chemical substances through the guidance of 
member nations.
    Mr. Burton. OK.
    Dr. Berlin. To produce this, they called together 
scientists in the field from all over the world. The scientists 
are in the capacity of knowledge and reputation. Then this 
group of scientists are left for a week or two to finalize 
documents, prepare and document them.
    Then this group of scientists, they elect among them a 
chairman, and I was selected chairman for these two groups.
    Mr. Burton. And this was in what, 1990?
    Dr. Berlin. And the document I am sure you have here in the 
United States.
    Mr. Burton. OK.
    Dr. Berlin. These documents are circulated to all member 
countries for review and comments before they finally are 
finalized.
    Mr. Burton. OK, Doctor.
    We now come to Dr. Eichmiller, Dr. Frederick C. Eichmiller. 
He is the DDS director of the American Dental Association 
Health Foundation at the Paffenbarger Research Center, National 
Bureau of Standards and Technology in Gaithersburg, MD. Is that 
a government-subsidized center?
    Dr. Eichmiller. Our center falls under the auspices of the 
American Dental Association Foundation. We are just located 
within a Department of Commerce facility.
    Mr. Burton. Who funds that?
    Dr. Eichmiller. It is funded by money from grants from the 
National Institute of Health and from a grant from the American 
Dental Association, and also some money from the Department of 
Commerce.
    Mr. Burton. So it is primarily funded by the Government of 
the United States?
    Dr. Eichmiller. Yes, correct.
    Mr. Burton. OK, proceed.
    Dr. Eichmiller. Thank you, Mr. Chairman. Members of the 
subcommittee, my name is Fred Eichmiller. I am a dentist. I am 
director of the Paffenbarger Research Center, which is one of 
the world's premier dental materials facilities. It is an 
affiliate of the American Dental Association Foundation located 
in Gaithersburg, MD. Scientists at the Paffenbarger Center 
conduct basic and applied studies to benefit the oral health of 
the American public.
    I am grateful to have the opportunity to discuss not only 
dental amalgam, a topic often surrounded by misinformation, but 
also the overall subject of dental restorative materials.
    I begin by stating that the American Dental Association 
concurs with the views of the World Health Organization, the 
Food and Drug Administration, the National Institutes of 
Health, and many other health organizations, that dental 
amalgam is a safe and effective treatment for dental decay. The 
ADA provided the full committee here extensive documentation of 
that during its hearing on November 14, 2002.
    It is not the intent of the ADA to promote amalgam over any 
other safe and effective material dentists use to restore 
decay. The association actively conducts and supports research 
to develop a variety of materials to improve health, oral 
health. In fact, it was Paffenbarger Center researchers who 
invented composite resin fillings, also known as ``white 
fillings,'' in the late 1950's. Today composites are the most 
commonly used dental filling material in the United States.
    Our goal is to ensure that dentists and their patients have 
the best treatment options available for the unique needs of 
each patient. Because the ADA and our member dentists want 
patients to make informed choices, we provide both dentists and 
patients with educational materials concerning the advantages 
and disadvantages of materials used to treat decayed teeth. I 
would like to provide the subcommittee with copies of these 
consumer choice brochures, which I have here, and charts for 
the record.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T7704.030
    
    [GRAPHIC] [TIFF OMITTED] T7704.031
    
    [GRAPHIC] [TIFF OMITTED] T7704.032
    
    Dr. Eichmiller. It is noteworthy that for more than a 
decade in our patient information on amalgam, the ADA has 
indicated the presence of mercury. To facilitate patient 
choice, we encourage private and publicly funded dental plans 
to cover a full range of restorative treatment options, not 
simply the least-costly option, which is usually dental 
amalgam. Unfortunately, many States continue to dramatically 
underfund their Medicaid and SCHIP dental programs.
    In an effort to draw attention to this problem, this past 
February the ADA undertook a massive campaign to ``Give Kids a 
Smile Program,'' to emphasize the need to improve access to 
dental care for children. This program treated an estimated 1 
million children at approximately 5,000 locations in all 50 
States, and we are working with some of your colleagues in the 
House and Senate to develop legislation that will focus on 
increasing access to oral health care for needy children.
    Health care policy must be based on sound science because 
our patients deserve nothing less. Then I would like to set the 
record straight about a few of the misconceptions that some 
hold concerning dental amalgam.
    The first is that amalgam is considered toxic: ``Before it 
is placed in a patient and after it is removed from a patient, 
it is toxic in a patient's mouth.'' Dental amalgam is not the 
same as mercury. The mercury in the dental amalgam is 
chemically bound with other metals, including silver, copper, 
and tin. These components are bound into a hardened stable and 
safe substance.
    The only relevant question is whether this substance 
creates a measurable negative effect on health, and dental 
amalgam does not. Like many substances used in health care, 
dental amalgam requires proper handling during the manufacture, 
shipping, storage, use, and disposal, in accordance with 
Federal, State, and local regulations.
    Second is ``the ADA attempts to conceal that mercury is a 
principal component of amalgam by calling the fillings 
`silver.''' Dentists and scientists generally refer to this 
material as ``dental amalgam.'' Many traditionally referred to 
these restorations as ``silver fillings'' because of the color 
of the material, differentiating them from gold fillings or the 
more-recently developed white fillings or composite resins. It 
is that simple. We always indicated the presence of mercury in 
our patient information on amalgam.
    Third, ``the ADA has a gag rule that prevents dentists from 
talking about the dangers of amalgam.'' The ADA neither has the 
power nor the desire to gag anyone. Rather, we support and 
defend the right of dentists to discuss freely, appropriately, 
and accurately all aspects of dental care with their patients. 
This information should be consistent with accepted science and 
the standard of care governing clinical practice.
    That said, a dentist who recommends removal of a 
serviceable filling from a non-allergic patient claiming that 
doing so will remove toxic substances and cure some non-dental 
disease is acting unethically by misleading that patient about 
therapeutic value of the proposed treatment.
    These are but a few of the misguided claims made by some 
concerning amalgam, and I would direct the members to our 
written testimony for a more complete discussion.
    The ADA's mission is to protect the rights of dentists and 
their patients to choose the most appropriate material that is 
safe and effective, based on the individual needs of that 
patient. We remain committed to research on improving 
restorative materials, making composites stronger, more 
resistant, longer lasting, usable for a larger variety of 
cavity types.
    Recently, our laboratories have developed composite resin 
to stimulate the natural healing abilities of teeth, rather 
than just repairing the damage done by decay. To reap the 
benefits promised by these and other improvements, however, we 
must work to incorporate them into the options that dentists 
and their patients have to treat oral disease, not eliminate 
safe and effective choices already providing relief to 
millions.
    Thank you, Mr. Chairman. I would be happy to answer 
questions.
    [The prepared statement of Dr. Eichmiller follows:]

    [GRAPHIC] [TIFF OMITTED] T7704.033
    
    [GRAPHIC] [TIFF OMITTED] T7704.034
    
    [GRAPHIC] [TIFF OMITTED] T7704.035
    
    [GRAPHIC] [TIFF OMITTED] T7704.036
    
    [GRAPHIC] [TIFF OMITTED] T7704.037
    
    [GRAPHIC] [TIFF OMITTED] T7704.038
    
    [GRAPHIC] [TIFF OMITTED] T7704.039
    
    [GRAPHIC] [TIFF OMITTED] T7704.040
    
    [GRAPHIC] [TIFF OMITTED] T7704.041
    
    [GRAPHIC] [TIFF OMITTED] T7704.042
    
    [GRAPHIC] [TIFF OMITTED] T7704.043
    
    [GRAPHIC] [TIFF OMITTED] T7704.044
    
    [GRAPHIC] [TIFF OMITTED] T7704.045
    
    [GRAPHIC] [TIFF OMITTED] T7704.046
    
    [GRAPHIC] [TIFF OMITTED] T7704.047
    
    [GRAPHIC] [TIFF OMITTED] T7704.048
    
    [GRAPHIC] [TIFF OMITTED] T7704.049
    
    [GRAPHIC] [TIFF OMITTED] T7704.050
    
    Mr. Burton. Dr. Berlin has worked with the World Health 
Organization, and you were chairman of that committee during 
the early nineties on metals and the toxic components of them, 
right?
    Dr. Berlin. Inorganic mercury was one document, and the 
other committee was methyl mercury.
    Mr. Burton. What did the World Health Organization say 
about those metals being used in human beings?
    Dr. Berlin. Well, 1990, we said in the document that the 
information available, when it comes to low doses of exposure, 
low levels of exposure, wasn't enough to make an assessment, 
but we said also that we didn't exclude the possibility of 
adverse effects. We clearly stated--we didn't say it was safe. 
We said that we didn't have enough information to make any 
assessment.
    Mr. Burton. But you were the chairman of that, were you 
not?
    Dr. Berlin. Yes.
    Mr. Burton. And didn't you just say a few minutes ago that 
you didn't think amalgams containing mercury were suitable for 
human beings?
    Dr. Berlin. I didn't get your question.
    Mr. Burton. Didn't you just say in your testimony that 
mercury in amalgams was not suitable for human beings?
    Dr. Berlin. That's right, today, because--yes.
    Mr. Burton. That is fine.
    Now, Dr. Eichmiller, how can you say that the World Health 
Organization says this is safe?
    Dr. Eichmiller. The World Health Organization, in their 
most recent statement on dental amalgam, has held that they do 
not see any adverse effect from the use of amalgam.
    Mr. Burton. Well, this guy sitting right next to you, a 
very eminent scientist from Sweden, who headed the panel back 
in the early nineties, now says that he doesn't think that it 
is safe for humans to use those. How do you respond to that?
    Dr. Eichmiller. That is not the current statement of the 
World Health Organization.
    Mr. Burton. So you think he is full of prune juice, right?
    Dr. Eichmiller. Excuse me. This was put forward today, and 
I have just seen testimony this morning, but that is not the 
current World Health Organization statement, no.
    Mr. Burton. Are you familiar with this thing called the ADA 
News?
    Dr. Eichmiller. Yes, I am.
    Mr. Burton. This is your publication. You have an article 
here that says, ``ADA's best management practices offered,'' 
and it says here what you should do with amalgams. It says, 
``Do recycle used, disposable amalgam capsules. Do use chair-
side straps to retain amalgam and recycle the content. Do 
appropriately disinfect extracted teeth that contain 
amalgams.'' And it says, ``Don't dispose of extracted teeth 
that contain amalgam restorations in biohazard containers, 
infectious waste containers, red bags, or regular garbage. 
Don't flush amalgam waste down the drain or toilet.''
    Why wouldn't you want to do that?
    Dr. Eichmiller. Those recommendations are primarily based 
upon proper handling of waste amalgam both from an 
environmental standpoint and from the standpoint of infection 
control.
    Mr. Burton. OK, but I mean you think there is a hazard or 
else you wouldn't have these recommendations made in your 
publication, right?
    Dr. Eichmiller. Those are done for the proper handling and 
recycling of amalgam material.
    Mr. Burton. Right, I know, but there is a reason for that. 
There is something that you are concerned about being put into 
the environment, and that is the mercury in amalgams, is that 
not correct?
    Dr. Eichmiller. It is correct that we would rather see the 
mercury, yes, absolutely, we would rather see the mercury 
recycled and not put into the environment.
    Mr. Burton. Because you don't want it in waste water 
treatment centers, where they clean that waste water treatment 
in the process and put it back out into water that goes back 
out and is consumed by human beings? You wouldn't want that 
mercury out there floating around getting back into human 
beings when they ingest that, right?
    Dr. Eichmiller. Waste water treatment centers are subjected 
to regulations which restrict----
    Mr. Burton. I know, I know.
    Dr. Eichmiller [continuing]. The amount of mercury they can 
emit, and we are cooperating with them in trying to reduce 
their mercury burden through these best management practices.
    Mr. Burton. That is why you don't want to flush this down 
the toilet or down the drain?
    Dr. Eichmiller. That is correct.
    Mr. Burton. Now when I had my teeth filled with mercury, 
with amalgams, I remember he mixed it up, you know, in one of 
those things that mixed it up real quickly, and then he put it 
in some kind of an instrument that he scrunched into my tooth. 
You know, he shoves it up in there.
    I recall very clearly little fragments falling down into my 
mouth that he tried to suck out with some kind of a vacuum 
cleaner, but all of it didn't get sucked out. A lot of it went 
into my body. What do you think happened to that stuff? It was 
mercury. You know part of it was mercury and it wasn't hard 
because he was putting it in. Do you think there was a danger 
there at all?
    Dr. Eichmiller. Elemental mercury swallowed has a fairly 
short half-life and a fairly low absorption, and we have not 
seen any research to show that scrap amalgam during placement 
would cause any adverse effect on health.
    Mr. Burton. Dr. Lorscheider, how do you respond to that?
    Mr. Lorscheider. Well, first of all, Dr. Eichmiller, in his 
initial statement, the very first point that he raised, that 
mercury is bound in amalgam and that this mercury is stable, is 
patently incorrect.
    The American Society of Metallurgy's Handbook makes a 
comparison of dental amalgam with another metal that we are all 
familiar with, stainless steel. The principal metal in amalgam 
is mercury, 42 to 54 percent, depending upon the manufacturer. 
The principal metal in stainless steel is iron. Now the 
American Society of Metallurgy, notwithstanding the American 
Dental Association, classifies this mixture of mercury with 
other metals, classifies this amalgam as a solid emulsion, 
whereas they classify stainless steel and the iron within it as 
a true alloy.
    The reason for this is that there is covalently bonding of 
the metals in stainless steel, but there is no covalent bonding 
whatsoever in the metals that are in dental amalgam.
    Mr. Burton. Put that in laymen's terms, so everybody 
understands it.
    Mr. Lorscheider. OK. What this means is that the mercury 
that is put into an amalgam is not chemically bound, as the 
dentists would like you to believe, but, in fact, is simply a 
solid emulsion. It is a free substance.
    The evidence for this, which the American Society of 
Metallurgy gives, is that with respect to stainless steel, iron 
no longer rusts once it is put into stainless steel, as a 
component of stainless steel. In other words, the original 
physiochemical properties of iron have changed irreversibly 
because of this covalent chemical bonding.
    Mr. Burton. Right.
    Mr. Lorscheider. But in the case of amalgams, mercury still 
vaporizes and comes off of amalgams. Now that is the first 
point that I wanted to make about what Dr. Eichmiller said.
    The second point is with respect to his comments on the 
stability of mercury in amalgams. Congressman Watson made 
reference to the California State Dental Board's hearings last 
fall. This was a hearing which both I and Dr. Haley were 
invited to speak at, and the topic was pregnant women and 
children are at increased risk for exposure to mercury from 
dental amalgam.
    Just to cite one paper, the scientific evidence clearly 
shows that human fetal liver and kidney and also infant kidney 
and brain mercury burdens are directly correlated with their 
mother's amalgam load. In other words, a mother that has a lot 
of amalgam fillings, her newborn invariably, or in the case of 
some these were aborted fetuses, her fetal or newborn will 
contain significantly more mercury than if she did not have 
amalgam fillings.
    So here you have human clinical evidence done in pathology 
labs in medical schools showing that this mercury in amalgam is 
not stable, and you also have evidence from the American 
Society of Metallurgy classifying dental amalgam as a solid 
emulsion. There is no chemical bonding--repeat: no chemical 
bonding--of mercury to any of the other metals.
    Mr. Burton. Dr. Haley, I think you testified about this 
before, but you said that you dropped amalgams in a glass of 
water. Can you, once again, reiterate what happened when that 
happened?
    Mr. Haley. With these experiments that were done, you would 
soak amalgams in water. You take aliquots out and you test them 
for toxicity using common enzymology.
    Mr. Burton. And what do you find?
    Mr. Haley. Well, they are toxic. I mean, his comments that 
they are not toxic, they fly in the face of stuff that has been 
published in the Journal of Dental Research.
    I just gave a reference up there where they said solutions 
in which amalgams have been soaked were severely cytotoxic. 
There was a paper that came out just this year again saying, 
you know clamoring, saying they were the first people to show 
neurotoxicity from dental amalgams by soaking amalgams in 
solution and exposing them to neurons and killing the neurons.
    I would like to point out one other thing.
    Mr. Burton. OK.
    Mr. Haley. When he says NIH, FDA, and WHO agrees with the 
American Dental Association, nothing could be further from the 
truth. That is like saying a committee of Republicans say 
something that I don't agree with, and so, therefore, I am 
wrong.
    These committees, if you go back to the committees he is 
making reference to, there were committees in the National 
Institutes of Dental and Cranial Facial Research and in the FDA 
and in WHO that were primarily made up of dentists. I took the 
time to go back and look at the credentials of these people to 
see what mercury toxicologist they had on those committees, 
what neurologists they had on those committees, what 
publications members of that committee had done, because I 
couldn't recognize very many of the names, none of them, to be 
honest with you.
    What I would say, there is a big difference from having a 
committee in WHO that is primarily constructed by the dental 
organization to have a meeting and release a report than have 
all of the World Health Organization agree. I would suggest 
that your committee go and look at the, ``expertise'' of the 
people that were on these committees that he says support them.
    So I just think that sometimes it is a ploy to have a 
committee that you have set up that will agree with what you 
want to have them agree with and then say all of the NIH agrees 
with you. I doubt that the American Medical Association would 
agree that it is a good idea to have something in your mouth 
that increases your mercury body burden by 80 percent, 
especially in light of the National Academy of Sciences study 
and the EPA study that says 8 to 10 percent of American women 
have such high mercury circulating in their blood that their 
children are at risk of neurological damage when they are born.
    I mean, so common sense would say you get rid of that 
source, if you look at the science, I mean published science 
and refereed journals, and I really find it objectionable that 
he would sit here and say that mercury doesn't come out of 
amalgams. I mean I am a chemist. That is easy to do.
    I do know that most dental schools don't have one 
instrument to measure mercury coming off amalgam, and we have 
five in our department. It comes off. It is simple to measure, 
and it comes off at a rate that anybody would say is 
unacceptable for human health.
    I think that people like Dr. Eichmiller is giving dentistry 
a bad name. I have a lot of good friends who are dentists who 
are saying they are wanting somebody to stand up and say, 
``What the hell is the truth?'' Yet, you go to the UK dental 
school and they will tell you, well, the mercury coming off of 
dental amalgam isn't very much. And they use the weasel terms: 
``We estimate'' or ``It is just a little bit'' or ``It is an 
insignificant amount.'' Scientists don't talk that way. They 
talk in micrograms per kilogram body weight or some other 
measurable unit.
    If they want to show--and he has been in charge of a major 
research unit--he should have published the amount of mercury 
coming off per centimeter squared of all of the amalgam 
fillings that the FDA and ADA have approved. I would like to 
know they have done that, why they haven't done it if they 
haven't, and where in the hell did they publish, if they did, 
because this is something that he should have done a long time 
ago.
    Mr. Burton. That's OK. Would you like to respond, Dr. 
Eichmiller?
    Dr. Eichmiller. There has been a fairly longstanding debate 
about what the proper measurement method should be for mercury 
coming off of amalgam. I don't think that the scientific 
community denies that there is mercury vapor that comes off of 
amalgam. The debate has been, how much?
    Where I think many of the studies that you are referring to 
have been done; in fact, have been done quite extensively over 
the years. I think if you go back to the work Mackert and 
Bradts, they have pretty clearly shown that there is mercury 
released and it is at a known but very low level.
    Mr. Burton. Let me ask you, so the ADA does admit that 
there is a mercury vapor that comes off of the amalgams? Is 
that correct?
    Dr. Eichmiller. Would you repeat this?
    Mr. Burton. The ADA, for which you are a spokesman, admits 
that there is a mercury vapor that does come off of the 
amalgams?
    Dr. Eichmiller. Yes, we have never denied that.
    Mr. Burton. Is there anybody that you know of or any 
scientific expert that would say that any amount of mercury 
vapor going into a person on a constant basis wouldn't be a 
risk?
    Dr. Eichmiller. I couldn't speak to that.
    Mr. Burton. You can't speak to that?
    Dr. Eichmiller. I wouldn't know, no.
    Mr. Burton. Well, the reason I asked--I mean, can you cite 
any scientist that would say or any doctor that would say that 
mercury vapor being put into a person's mouth on a constant 
basis would not be a risk? Just any scientist that you know 
that would say, ``Mercury vapor in anyone's mouth on a constant 
basis would not be a neurological risk?''
    Dr. Eichmiller. The debate here is dose. We know that 
mercury vapor is released, but what we don't know is, or what 
we don't see is, that it is released in a sufficient quantity 
to be a risk.
    Mr. Burton. What is a sufficient quantity?
    Dr. Eichmiller. Right now, most of the data is from 
industrial data, looking at vapor levels, and the level has 
been set at around 50 micrograms per cubic meter for air. 
However, I think Dr. Berlin indicated that the World Health 
Organization I think is looking at lowering that some, but it 
is still--we plainly fall well within.
    Mr. Burton. If I have five fillings in my mouth that are 
amalgams, how much vapor comes off of that?
    Dr. Eichmiller. That I don't know.
    Mr. Burton. Well, that is the point: You don't know. People 
are chewing and brushing their teeth and being exposed to this 
vapor on a regular basis, and the people that you represent 
don't know.
    Dr. Eichmiller. Excuse me, but I don't know off the top of 
my head.
    Mr. Burton. I certainly don't want to beat up on you 
because I know that you probably feel like that when you leave 
this place, but the fact of the matter is we have got millions 
and millions of people that have these things in their mouth. I 
was one of them until my dentist out there very kindly got it 
out of there.
    But the fact is there is a risk factor, and you don't know 
how many micrograms, or whatever, is being emitted from these 
amalgams and you don't know how much per body weight is going 
to adversely affect people. It seems to me that the ADA, if 
they are concerned about humanity and the people that they 
serve, would want to double-check that and have scientific 
research done to make sure that they are protecting the 
American public.
    Now if they don't, I think there is a risk factor here 
because these hearings over the next year, 2 years, 3 years, 
however long I am chairman, however long will they go on, we 
are going to buildup a body of evidence I think that is going 
to show that there is a risk factor. I think the ADA, or any 
agency or any organization that continues to deny that there is 
a risk factor, in view of the facts that are being built up 
over this period of time, are going to leave themselves open to 
all kinds of potential lawsuits.
    It seems to me that the prudent thing to do would be get on 
with research with the ADA to make sure that you guys aren't 
stepping on a land mine. Do you see what I am saying? I really, 
for the sake of your dentists around the country, I think that 
if there is any doubt whatsoever about the veracity of what has 
been said by these gentlemen or yourself, then there ought to 
be a scientific study done by the organization itself to 
protect itself against the potential of litigation down the 
road.
    Yes, sir, Dr. Haley?
    Mr. Haley. I am chairman of the chemistry department that 
has a building that is 40 years old, and we have threats to 
shut down the water supply to our building because the water 
going out and the effluent is too toxic for them, too high to 
take, and it is much less than what would be in the saliva of 
anybody with a single amalgam filling.
    I would point out that chemistry has known for at least 20 
to 30 years how to accurately measure mercury coming off of any 
substance. To say that we don't know how much mercury will come 
off of a amalgam filling is silly. I mean it is preposterous. 
Anybody, any chemistry department, if you call them--and I 
would suggest you not believe me, but call chemistry 
departments and say, ``Can you accurately measure to less than 
a microgram level per day how much mercury comes off of a 
solid, fixed substance?'' They would tell you they can.
    This data should have been published, should have been done 
by the American Dental Association or the FDA or the NIH a long 
time ago. This is not rocket science. This is as simple as 
chemistry gets to measure mercury coming off of a hard 
substance such as an amalgam.
    Why this isn't done, well, it doesn't baffle me. I think I 
truly understand that it is not for good reasons. It is 
something that should be done, that has been done, and why the 
ADA can make the claim that we don't know what is just a little 
bit--and his reference to Dr. Mackert, Dr. Mackert estimated 
the amount of mercury coming out of an amalgam filling by using 
a vapor sniffer or something measuring it in the mouth, which 
is one of the most inaccurate ways of doing it.
    But making amalgams outside the mouth, leaving them 
untouched, and measuring the mercury that comes off in the air 
or in water or any solution you want is very easy to do. It has 
been done several times. I think this is something that the 
American public should be made aware of. It is not rocket 
science.
    Mr. Burton. Dr. Lorscheider, do you have any comment on 
that?
    Mr. Lorscheider. Well, I am surprised at Dr. Eichmiller's 
comment that, even though he does concede that mercury does 
come off of amalgams, first, he claimed that dentistry has 
always admitted that. I can tell you that before 1985 they did 
not admit that, but after 1985, as ours and other papers began 
to come out in the literature, they had to concede that mercury 
does come off of fillings.
    Now if he claims that dentistry believes this mercury to be 
a very small amount, in the Commission review article that I 
submitted to you, there is a reference, No. 17, by the World 
Health Organization. This was a committee chaired by Dr. Lars 
Friberg. They published a document in 1991 on inorganic 
mercury.
    On page 36 of this document is a very nice table showing 
the sources of all mercury exposure that humans would incur. In 
that table, it includes air, water, diet, foodstuffs, and also 
dental amalgams. And the No. 1 source of mercury exposure to 
humans as far back as 1991 is clearly dental amalgams, not 
mercury in the diet, not mercury in the air or water.
    So, again, I totally disagree with Dr. Eichmiller's 
statements. The research evidence does not support what Dr. 
Eichmiller claims. In medicine we can only deal with published 
adjudicated evidence.
    Mr. Burton. Did you give us a copy of that document for the 
record, sir?
    Mr. Haley. I will indicate which reference citation that is 
in this review article.
    Mr. Burton. Well, we would like to have--in fact, I will 
have my staff make a copy of that, so we can have a copy for 
our record, if you would like.
    Mr. Haley. Well, I don't have the original WHO document 
with me, but Dr. Berlin may, in fact, have that document.
    Mr. Burton. OK. Well, Dr. Berlin, do you have that article?
    Dr. Berlin. We are talking about that chart, and, in fact, 
yes, first of all, I really have the original document here. 
But on top of that, in the report I handed over it is referred 
to, and we stated that 3 to 70 micrograms per day is taken up 
from amalgam in a toxin with an average number of amalgam 
fillings.
    And later on, it was discovered that some people, those 
people who have the habit to chew chewing gums through the day, 
and especially those people who use this nicotine chewing gum 
to stop smoking, these people, some of them, tended to excrete 
a very high amount of mercury when they did this, up to 
levels----
    Mr. Burton. Again, would you pull the mic closer? We want 
to make sure we hear what you say.
    Dr. Berlin. Sorry. They came up to levels which are around 
that level of 50 micrograms per liter urine where we see effect 
in mercury workers. But the range in extreme cases, amalgam can 
cause so much mercury excretion that it is up to what we 
consider the limit for industrial populations exposed to 
mercury. These are all references you can find----
    Mr. Burton. In your report?
    Dr. Berlin. Yes.
    Mr. Burton. Well, we will put that in the record. We will 
put that report in the record.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T7704.051
    
    [GRAPHIC] [TIFF OMITTED] T7704.052
    
    [GRAPHIC] [TIFF OMITTED] T7704.053
    
    [GRAPHIC] [TIFF OMITTED] T7704.054
    
    [GRAPHIC] [TIFF OMITTED] T7704.055
    
    [GRAPHIC] [TIFF OMITTED] T7704.056
    
    [GRAPHIC] [TIFF OMITTED] T7704.057
    
    [GRAPHIC] [TIFF OMITTED] T7704.058
    
    [GRAPHIC] [TIFF OMITTED] T7704.059
    
    [GRAPHIC] [TIFF OMITTED] T7704.060
    
    [GRAPHIC] [TIFF OMITTED] T7704.061
    
    [GRAPHIC] [TIFF OMITTED] T7704.062
    
    [GRAPHIC] [TIFF OMITTED] T7704.063
    
    [GRAPHIC] [TIFF OMITTED] T7704.064
    
    [GRAPHIC] [TIFF OMITTED] T7704.065
    
    [GRAPHIC] [TIFF OMITTED] T7704.066
    
    [GRAPHIC] [TIFF OMITTED] T7704.067
    
    [GRAPHIC] [TIFF OMITTED] T7704.068
    
    [GRAPHIC] [TIFF OMITTED] T7704.069
    
    [GRAPHIC] [TIFF OMITTED] T7704.070
    
    [GRAPHIC] [TIFF OMITTED] T7704.071
    
    [GRAPHIC] [TIFF OMITTED] T7704.072
    
    [GRAPHIC] [TIFF OMITTED] T7704.073
    
    [GRAPHIC] [TIFF OMITTED] T7704.074
    
    [GRAPHIC] [TIFF OMITTED] T7704.075
    
    [GRAPHIC] [TIFF OMITTED] T7704.076
    
    [GRAPHIC] [TIFF OMITTED] T7704.077
    
    [GRAPHIC] [TIFF OMITTED] T7704.078
    
    [GRAPHIC] [TIFF OMITTED] T7704.079
    
    [GRAPHIC] [TIFF OMITTED] T7704.080
    
    [GRAPHIC] [TIFF OMITTED] T7704.081
    
    [GRAPHIC] [TIFF OMITTED] T7704.082
    
    [GRAPHIC] [TIFF OMITTED] T7704.083
    
    [GRAPHIC] [TIFF OMITTED] T7704.084
    
    Mr. Burton. After we have our hearings over the period of 
the next 6 months to a year, Representative Watson and myself, 
there will be a report issued that will go into all these 
details and itemize each one of these reports and what they 
were.
    Ms. Watson? Excuse me 1 second. I will be back in about 5 
minutes.
    Ms. Watson. Thank you so much, Mr. Chairman.
    Let me apologize to panel one for my absence for a few 
minutes. We have a highly secret briefing on the floor of 
Congress.
    This is a question to Dr. Eichmiller and maybe you have 
responded to it: The ADA is telling its members that amalgam 
fillings are hazardous material, is that true?
    Dr. Eichmiller. The ADA is educating us members in the 
proper handling of the material as a hazardous waste, yes, that 
is true.
    Ms. Watson. Yet, the ADA resists telling the patients this 
salient fact. Would you agree with me today that dentists 
should tell a patient before putting in a mercury filling, and 
they should tell them that the filling is a hazardous material 
when removed? Would you agree to that?
    Dr. Eichmiller. I would agree that a practitioner should 
talk about all the risks and benefits of any filling material 
that is being placed, but to discuss it as a hazardous material 
from a waste disposal aspect, I am not sure that would be 
useful information for that patient.
    Ms. Watson. Why would you not tell them that?
    Dr. Eichmiller. It really doesn't relate to the therapeutic 
or the health effect of that material.
    Ms. Watson. As I understand from the research that has been 
done to this point, even a baby's tooth, if it has been filled, 
can give off the vapors. An adult, should they not know that if 
they had that tooth pulled or additional work done on that 
tooth, that there could be very hazardous vapors escaping? I 
want you to tell me, very directly, why you wouldn't want to 
tell patients the same things you tell the dentists. If there 
is even a trace element that could be toxic internally, why 
should you keep the patient in the dark but tell the dentist?
    Dr. Eichmiller. Well, we certainly don't want to keep the 
patient in the dark on anything. I think that is why we 
encourage dentists to talk about the risks and benefits, and if 
that dentist feels that the mercury release from that alloy is 
a risk, then he should discuss that with the patient. We 
certainly would not discourage that.
    Ms. Watson. Do you promote it?
    Dr. Eichmiller. We do promote discussion of all the risks 
and benefits of all the filling materials. The patients and 
dentists openly discuss this.
    Ms. Watson. Well, why for so long did you have a gag order 
on dentists telling the patient about the ``silver'' filling?
    Dr. Eichmiller. The Code of Ethics was there to protect 
patients. What it does is really restricts a dentist from being 
able to offer any type of treatment, whether it is any type of 
filling, as a cure for a disease when there is not good 
scientific evidence that is true or when it falls outside their 
expertise.
    Ms. Watson. Dr. Eichmiller, would you agree that mercury is 
a neurotoxic?
    Dr. Eichmiller. Yes, in some forms mercury is a neurotoxin.
    Ms. Watson. Yes or no, would you agree?
    Dr. Eichmiller. In some forms it is a neurotoxin, yes.
    Ms. Watson. Would you agree that in the filling of a child 
or an adult that they have within that filling what is highly 
toxic, and would you agree that calling it ``silver'' is very 
deceptive?
    Dr. Eichmiller. I don't think that we have been deceptive 
intentionally----
    Ms. Watson. You have been calling a mercury filling, 50 
percent mercury, you have been calling that silver, have you 
not? Yes or no?
    Dr. Eichmiller. We have called them silver fillings, but we 
have also called them amalgam fillings.
    Ms. Watson. OK.
    Dr. Eichmiller. All of our patients----
    Ms. Watson. Have you explained what an amalgam filling 
contains?
    Dr. Eichmiller. All of our patient education information 
has explained the composition of an amalgam filling----
    Ms. Watson. When?
    Dr. Eichmiller [continuing]. And mercury is listed in there 
as a composition----
    Ms. Watson. When?
    Dr. Eichmiller. Over the last 10 years.
    Ms. Watson. Is it all the time? You know, I am astounded 
that people in a medical profession put up an argument. And do 
you know what I have been told? And I have got a letter right 
here. Do you want to pull that letter from the National Dental 
Association?
    Their bottom line is that, if patients knew that they had a 
choice, if patients knew that amalgam contained as much as 50 
percent mercury, that it would reduce the assessibility to 
dental health care. So what they are saying to me, the bottom 
line is assessibility rather than reducing the risk to health, 
and particularly for pregnant women and particularly for little 
children.
    I still can't reconcile it in my mind why you, medically 
prepared, dentally prepared, providers wouldn't see any form of 
mercury in the body as a risk. Right now they are telling us on 
the West Coast that we shouldn't eat a lot of fish because of 
the mercury content, but, still, you are going to put these 
amalgams in people's mouths and not want to tell them that you 
are deceiving them. You know, people without a lot of education 
think silver is silver, and it really isn't.
    For the life of me, I cannot understand that. Now I have 
worked very, very hard in California, and I will continue to 
work hard in Washington, DC, because I don't think poor people 
need to be deluded, need to be deceived. I am going to do 
everything that I can--I want you to take this back to the ADA 
and anyone here from the NDA--I am going to do everything I can 
to be open and honest, give people a choice, and rid their 
bodies of those substances that we know can be harmful.
    If we are going to take it out of a thermometer, why would 
you even want to risk even a trace element of putting it in 
someone's mouth? Can you explain that to me?
    Dr. Eichmiller. In decisions on materials, we really have 
to use the entire body of the best available evidence. I think 
that is what the major health organizations have done, is to 
review the entire body of evidence related to the use of 
amalgam. That is how they came to their conclusions, was after 
weighing the entire body.
    Now this is not a process that ends. It is a process that 
is ongoing. I know the FDA and HHS are currently pulling a 
panel together to review again the most recent evidence.
    We at the ADA, with our Council on Scientific Affairs, do 
much the same thing. We will continue to assess the new 
evidence, and as new evidence is published and new theories 
come forward, we will certainly take those into account and we 
will review those.
    Ms. Watson. OK, that is your explanation, but I see a 
number of mercury-free dentists in the room right now, and that 
number is growing dramatically. I just want to ask you, how 
long do you think the ADA can continue to advocate for mercury 
when its membership base is rapidly abandoning mercury?
    I just saw that in your ADA News that you talked about the 
tooth fairy and you talked about handling toxic amalgam waste, 
and then you talked about contact amalgam, and then you say, if 
we put a baby's tooth underneath the pillow, is that contact 
hazardous? Well, it is that kind of ridiculous play that really 
bothers me in the health delivery community, and your responses 
are really bothering me because I don't think there is anyone 
in the medical profession or dental profession that will 
disagree that mercury is toxic. Would you disagree?
    Dr. Eichmiller. As I said, I think in some forms we all 
know that mercury is toxic and in some doses, but it is the 
form and the dose of mercury that make it a poison.
    Ms. Watson. OK. And I just am completely amazed because I 
know what is going on here. You are looking at the bottom line. 
My dentist told me that, and then he stuck something in my 
mouth and I couldn't respond. It is because the amalgam is 
cheaper. So why disturb a good thing? I was appalled, as I am 
appalled at your responses.
    Thank you, Mr. Chairman.
    Mr. Burton. Well, I think we will excuse this panel. But, 
as we excuse you, let me just say that, as we complete our 
report, one of the things that we have been able to do on my 
full committee, and hopefully as a subcommittee chairman, is we 
have been able to contact news organizations that are 
interested in the subject matter that we discuss. I just want 
the panel to know, especially Dr. Eichmiller, that when we get 
enough data that we think proves the case that we believe to be 
the case, we are going to go to every single one of those news 
organizations and try to make sure that they get all the facts, 
so that they can consider doing a case on ``20/20,'' ``60 
Minutes,'' or something else.
    That is something that we always do, and I think that the 
ADA ought to know that this isn't going to go away. I mean, you 
can tell she is committed, and I am, too, and we will continue 
to push forward until we get mercury out of everybody's mouth, 
and it will happen; you can bank on it.
    With that, thank you very much for this time.
    [Applause.]
    Mr. Burton. On our next panel, we have one of our 
colleagues, I understand, with us, a distinguished Member of 
Congress, Mike Michaud, who represents the second district of 
Maine, so far north that it never quits snowing. [Laughter.]
    We also have Dr. Chester Yokoyama, who is a dentist and a 
member of the Dental Board of California. We have Sandra Duffy, 
esquire, founding member of Consumers for Dental Choice 
Northwest from Lake Oswego, OR, and Mr. Emmitt Carlton, 
immediate past president of the Virginia Chapter of the 
National Association for the Advancement of Colored People 
[NAACP], of Alexandria, VA.
    Would you all come forward, please, and take your place at 
the table? Would you all come forward and rise?
    First of all, I want to apologize for the length of the 
hearing and the vote that we took on the floor. I didn't expect 
that to happen, so I apologize for you having to wait so long.
    [Witnesses sworn.]
    Mr. Burton. Be seated.
    Representative, Congressman, thanks for being so patient. 
Doggone it, usually, we don't make our colleagues wait that 
long. So you have my humble apology. You can proceed.

 STATEMENTS OF HON. MIKE MICHAUD, A REPRESENTATIVE IN CONGRESS 
  FROM THE STATE OF MAINE; CHESTER YOKOYAMA, D.D.S., MEMBER, 
  DENTAL BOARD OF CALIFORNIA; SANDRA DUFFY, ESQUIRE, FOUNDING 
   MEMBER, CONSUMERS FOR DENTAL CHOICE NORTHWEST; AND EMMITT 
  CARLTON, IMMEDIATE PAST PRESIDENT, ALEXANDRIA, VA CHAPTER, 
   NATIONAL ASSOCIATION FOR THE ADVANCEMENT OF COLORED PEOPLE

    Mr. Michaud. Thank you, Mr. Chairman. You don't need to 
apologize. Actually, I enjoyed listening to the last panel, 
having dealt with this issue in the State of Maine over the 
last 4 years.
    Actually, we did get some snow last week in the northern 
part of my district, not much, but we did get some.
    I do want to thank you for inviting me here today to talk 
to your subcommittee. Mr. Chairman, it is a great honor and a 
privilege. I know you have led the way in addressing the health 
risks of mercury in health care and trying to get our Federal 
agencies to recognize the breadth of this problem, and I know 
the ranking member, Chairwoman Watson, as a State Senator, you 
wrote the first law in the country addressing health risks in 
mercury fillings, a pioneer statute for subsequent bills and 
laws around the country.
    Despite the strenuous efforts both of you have made, as I 
understand, major roadblocks have been erected. Thus, Federal 
agencies have not yet provided the warnings that science 
demonstrates they should. California regulators, despite 
repeated efforts, have still not implemented the law that you 
passed when you were in the legislature.
    Perhaps, then, our experience in Maine to get some consumer 
disclosure can be of some help. I might add that it has been a 
long-going effort. The original law was just to ask for 
information, and the Dental Association came full force and 
opposed just advising consumers of mercury amalgams.
    After several years, under the leadership of Senator John 
R. Martin, the last time around, the legislature finally passed 
my bill to require that information be distributed about 
mercury dental fillings. After another year of intense follow-
through and passage of a second bill, we are able, actually, to 
implement it.
    Thus, Maine was first in the Nation to have a brochure to 
tell people that they had better think twice before agreeing to 
have mercury fillings implanted in their children's teeth. The 
need for action in Maine was apparent. Mercury fillings were 
promoted as silver, even though they have almost twice as much 
mercury as silver. I wanted to stop this marketplace deception 
and, if you will, call a spade a spade. Thus, my bill calls for 
fillings to be labeled, ``mercury amalgams,'' and we insisted 
that both posters and cover of the brochure say exactly that.
    In coordination with the Atlantic Province, New England has 
a zero-mercury tolerance campaign. A major source of mercury is 
from the dental office. The report entitled, ``Dentist the 
Menace,'' says dental offices are the No. 1 source of mercury 
in the waste water. I have seen no evidence from the other side 
to dispute that.
    In my region we had a compelling need to reduce the use of 
mercury in dental offices for environmental reasons alone. Your 
experience in California, Congresswoman Watson, was that the 
Dental Board blocked enforcement of the law, and I am glad to 
see Dr. Chet Yokoyama from Los Angeles, the Dental Board member 
from California who is trying, I know, his hardest to get the 
information so that consumers will know what is going on.
    In Maine, to ensure that the legislation was implemented, 
we gave the authority to write the poster and the brochure to 
the Bureau of Health, not to the Dental Board, and to impose a 
strict timeframe when that was to be done. Also, the director 
of health was also required to report back to the legislature 
in the following session with proposed rules which we could 
then adopt or amend.
    The first draft of the Bureau of Health fell short from 
what the law actually required, but after a hearing, and again 
with intense involvements of consumer activists, the Maine 
Toxic Action Coalition and individual Maine dentists and 
physicians, we persuaded the bureau to write a stronger 
disclosure statement. Passage of this statement was harder than 
we expected because the Maine Dental Association vehemently 
opposed it, and we had to work very hard to make sure to get 
this passed. Actually, I do have a copy of it, and you can get 
it on the Internet as well.
    I think dentistry is divided over whether to continue using 
mercury fillings. The number of mercury-free dentists is 
growing. Dentists I have talked to realize that there 
eventually will be an end to mercury in dentistry in the near, 
hopefully, future. It could be for different reasons, health 
reasons. It could be for consumer protection reasons. It could 
be for environmental reasons or it could be for all three.
    Although I have had my differences with the Dental 
Association on this issue, I am still supportive of other areas 
as far as reimbursement rates for dentists. I think, when you 
look at Maine's law and what had happened, and listening to the 
testimony earlier, even the very fact, let alone banning 
mercury fillings, just the very fact that we were just trying 
to give the consumers advice on what potentially was being put 
in their mouths, they fought tooth and nail against that 
effort.
    Hence, that is why when I submitted the bill in the second 
session, we changed the title to an environmental title; hence, 
went to the environmental committee. We had a very intense 
several work sessions on the bill. I will be glad to provide 
the committee with the documents that were presented at that 
time, if the committee so chooses.
    So I want to thank you once again for inviting me here to 
say a few words about Maine's law and want to commend both the 
chairman and the ranking member for your strong position in 
this area. I really appreciate it. Thank you.
    [The prepared statement of Hon. Mike Michaud follows:]

    [GRAPHIC] [TIFF OMITTED] T7704.085
    
    [GRAPHIC] [TIFF OMITTED] T7704.086
    
    [GRAPHIC] [TIFF OMITTED] T7704.087
    
    [GRAPHIC] [TIFF OMITTED] T7704.088
    
    [GRAPHIC] [TIFF OMITTED] T7704.089
    
    [GRAPHIC] [TIFF OMITTED] T7704.090
    
    Mr. Burton. Well, we appreciate your efforts. It is tough 
in the State legislature or in the Congress to get things done, 
and you are to be commended for taking that ball/bat all the 
way through. We appreciate that. I hope that you will join with 
Congresswoman Watson and myself to win this battle here as 
well, and we do appreciate it very much. Thank you for waiting 
so long as well.
    Mr. Michaud. Yes, thank you.
    Mr. Burton. Dr. Yokoyama.
    Dr. Yokoyama. Yes, thank you very much. I will just say, to 
the Honorable Mike Michaud, that California is looking at the 
brochure that they produced in Maine as a possible template for 
moving forward with a consumer-friendly fact sheet.
    With that, I will thank you very much for allowing me to 
speak today and inviting me. I will say that, although I am a 
member of the Dental Board of California, I am not speaking on 
behalf of the board, nor am I authorized to speak on behalf of 
the board. My comments reflect my personal opinions. I am a 
mercury-free dentist practicing in the State of California.
    I have been asked to comment on the subject of informed 
choices as it relates to dental fillings, and specifically 
mercury fillings. To do so, I would like to focus on the 
struggle, California's struggle to implement the California 
State Watson bill. This bill, as has been said here, that was 
passed in 1992, sponsored by the then-State Senator Diane 
Watson, recognized the misconception that silver fillings are 
not primarily silver, but mercury.
    First of all, most people of that time, and many people 
even today, do not know that mercury is the main and majority 
ingredient in their filling material. Second, it was widely 
believed by dentists that there is no way that the mercury can 
be released because it was mixed together to form a solid 
metal. Both of these concepts are still around today, and 
neither add but are contrary to informed choices.
    My first point: There is still today major misconceptions 
on the part of consumers and dentists alike concerning mercury 
in fillings. In 1992, the Watson bill became law. It called for 
the California Dental Board to make a fact sheet on the risks 
and efficacies of dental materials. The emphasis was on 
educating the dentists so they could educate their patients.
    Again, the main reason was to shed light on the 
misunderstood issue of mercury in fillings. This would make for 
better consumer choices. Sadly, little progress was made in 7 
years, and I jump to 1999, when the Consumers for Dental Choice 
and the Center for Public Interest Law petitioned the 
California Dental Board to write the fact sheet as called for 
in the Watson law.
    The board contracted a behavioral scientist that contracted 
a dental materials professor to write the dental materials fact 
sheet. This dental materials expert appears to have worked 
alone. No toxicologists were asked to give input. The biography 
shows a distinct lack of available scientific articles on 
toxicology, on the toxicity of mercury, and the associated 
health risks.
    Remember that the Watson bill's intent and the needs of the 
people of the State of California were to clarify the mercury 
misconceptions. So point two: The primary intent of the fact 
sheet explained or the explanation of health risks from mercury 
in dental amalgam was not well-inspected and not well-
documented, in my opinion.
    In 2000, a new law by State Senator Liz Figueroa created a 
new board and required that dentists give a fact sheet to their 
patients. Again, this was an attempt to inform consumers about 
health risks of dental materials, and specifically of mercury.
    A public informational hearing was convened to explore the 
question: What peer-reviewed scientific evidence exists that 
suggests health risks for pregnant women, children, and 
diabetics from mercury from dental amalgam? Now the reason why 
that question was posed like this was that the existing fact 
sheet in the State of California proclaimed that there was, 
``No research evidence that suggests pregnant women, diabetics, 
and children are at increased health risk from dental amalgam 
fillings in their mouth.''
    In my opinion, this statement is incorrect, and the implied 
conclusion that pregnant women and children are without risk is 
also false. It was proven at the informational hearing that was 
convened that there was research evidence that suggests 
increased health risk and health risks in general.
    What is also clear is that there exists a strong, 
scientific controversy. These applied and assumed conclusions 
from reading the existing fact sheet in the State of 
California, in my opinion, are misinformation and should be 
corrected.
    So point three: There has been a long struggle to implement 
the Watson bill in the State of California. In my opinion, this 
has not allowed full disclosure or informed choice. In my 
opinion, there should be an advisory issued, since the safety 
or harm of mercury fillings is not yet scientifically 
conclusive.
    So the Dental Board of California should advise parents and 
pregnant women that, as a precaution, children and pregnant 
women should not be given amalgam fillings. This reflects the 
precautionary principle which requires action once the 
possibility of harm exists.
    So my fourth point: In my opinion, if--and I quote the 
Dental Materials Fact Sheet--``There exists a diversity of 
various scientific opinions regarding the safety of mercury 
dental amalgams,'' and that, ``these opinions are not 
scientifically conclusive,'' then, in my opinion, advisories 
should be made and cautions given.
    So on the day that I was preparing this testimony I found 
in the Los Angeles Times an article entitled, ``Warnings on 
Canned Tuna Urged.'' The subtitle was, ``Advocates question why 
public health advisories on mercury fail to give specific 
advice about the most frequently eaten seafood in the 
country.''
    In all industries, including medicine, there is an acute 
awareness of dangers of mercury. Mercury is no longer used in 
medicine. Yet, we continue to insist that mercury amalgams 
stored in the mouth presents no health risk. Pregnant women are 
advised that mercury fillings are safe. Yet, dental personnel 
are warned not to touch the mixed amalgam with ungloved hands. 
Skin contact exposes the dental assistant to mercury, which is 
a substance known to the State of California to cause birth 
defects and reproductive harm.
    I respectfully submit this testimony and thank you very 
much for the opportunity.
    [The prepared statement of Dr. Yokoyama follows:]

    [GRAPHIC] [TIFF OMITTED] T7704.091
    
    [GRAPHIC] [TIFF OMITTED] T7704.092
    
    [GRAPHIC] [TIFF OMITTED] T7704.093
    
    [GRAPHIC] [TIFF OMITTED] T7704.094
    
    Mr. Burton. Thank you, Dr. Yokoyama. I think you make a 
very salient point. You can't touch it with your hands, but 
they will sure put it into your gums.
    Ms. Duffy.
    Ms. Duffy. Chairman Burton and Ranking Member Watson, I am 
Sandy Duffy, and my day job is as a lawyer from Multnomah 
County, OR. That is the county where Portland is located.
    I became involved in the mercury-free dental cause when my 
48-year-old husband's prostate cancer treatment failed and he 
was sent home to prepare for the inevitable. With a 7-year-old 
son, it was not an answer that I was willing to accept.
    In searching for help for my husband, I learned that 
mercury suppresses the immune system and that the primary 
source of mercury in our bodies comes from dental amalgams. I 
was astounded. I knew mercury to be a serious toxin and could 
not believe that the Federal Government hadn't done something 
about a toxic product found in 80 percent of American mouths. 
How could this be?
    I now know that my lack of knowledge was not unique, that 
60 percent of Americans are unaware of the fact that there is 
even a controversy over the safety of mercury amalgams. How has 
dentistry hidden this information? My written materials contain 
a comprehensive list, and I am going to mention just three of 
them.
    They have accomplished this by: one, using the term 
``silver fillings'' and hiding the fact that amalgams are 50 
percent elemental mercury; two, by adoption of ethical rules by 
the dental trade associations and the dental regulatory boards 
which deem it unethical and fraudulent for dentists to tell 
patients that removal of mercury amalgam dental fillings 
removes a toxin from the body, and, three, by using dental 
regulatory boards to prosecute mercury-free dentists for 
advertising mercury-free dentistry and for violating these 
ethical rules by telling patients about the mercury toxicity.
    These uses of ethical rules are essentially gag orders, and 
they have been particularly powerful and effective tools in 
intimidating mercury-free dentists from informing their 
patients about the existence of mercury in dental fillings and 
the risks of such fillings. The ADA led the way. They have an 
ethical rule, Rule 5(a), which states, ``Removal of amalgam for 
the alleged purpose of removing toxic substances from the body, 
when performed solely at the recommendation or suggestion of 
the dentist, is improper and unethical.''
    While the ADA claims that it does not tell dentists not to 
talk about amalgams, this rule clearly tells the dentists not 
to speak about a specific topic, the topic of removal of 
amalgams from the human mouth. Mercury-free dentists are 
concerned that any speech critical of amalgam can be construed 
by a vigilant dental board as advocating removal of amalgam.
    The Oregon Board of Dentistry adopted an even more onerous 
policy, which provided that it is a fraud for dentists to 
advocate to a patient the removal of amalgams. In Oregon, this 
law is the basis for revocation of a dentist's license.
    Last year I was able to enlist the help of the ACLU to 
challenge this policy with the Board of Dentistry, and the ACLU 
convinced the attorney general of Oregon to recommend to the 
board that they rescind its policy because it was 
unconstitutional abridgment of free speech. On March 8, 2002, 
the board did rescind that policy.
    Last week I asked my mercury-free dentist what the 
rescission of this policy personally meant to him. He asserted 
that it took away a very effective gag order. He now feels free 
to advise his patients about the hazards of mercury in dental 
fillings, and he tells them about safe alternatives. He did not 
feel he could speak this freely before the rescission of the 
policy.
    In May of last year, I flew to Des Moines, IA to testify 
before a legislative committee reviewing administrative rules, 
which was considering a similar Board of Dental Examiners rule. 
The legislative committee requested an opinion on the 
Constitutionality of the rules from the attorney general and, 
after intervention by the Iowa ACLU, the attorney general 
finally did issue an opinion, and it concluded, ``Dentists do 
have a free speech right to voice a personal opinion. We advise 
the board to reassess the continued viability of the rule.'' 
The Iowa Board of Dental Examiners has scheduled a meeting for 
June 18, 2003 to rescind that Iowa rule.
    The Arizona legislature took the unprecedented step of 
sending a letter of reprimand to its dental board for its 
extensive and expensive prosecution of a mercury-free dentist 
simply for being mercury-free.
    I would like to make just a comment off my notes here about 
Dr. Eichmiller's comments about this gag order. He said that 
the rationale for the rule was to prevent dentists from 
promising health cures by removing amalgam. That is not what 
that ethical rule says.
    We agree that dentists can't promise cures, just like an 
orthopedic surgeon can't promise to cure back pain if he gives 
them surgery. That is a distinction.
    The experiences in Oregon, IA, and Arizona show that the 
mercury-using majority of dentists have exerted regulatory 
power to control the free-speech rights of mercury-free 
dentists, and they have interfered with the relationships 
between the patients and their dentists in order to protect the 
majority's unfettered use of mercury as a restorative material. 
The intended effect of this gag rule is anticompetitive. 
Mercury-using dentists are limiting the practice of mercury-
free dentists who now account for 21 to 28 percent of 
practicing dentists. And here is a question that needs to be 
asked: On the issue of mercury amalgams, are Federal agencies 
protecting the health of citizens or the economic interests of 
mercury-using dentists?
    Due to the time limits today, I will limit my remarks to 
just the National Institute of Dental and Cranial Facial 
Research. In the 1940's, the ADA successfully lobbied to get a 
separate division of the National Institute of Health for 
research related to dentistry. The NIDCR has been safely in the 
hands of mercury-using dentists ever since. They decide who 
gets taxpayer research dollars, what topics are researched, and 
what results are published.
    While the ADA repeatedly claims that there are no credible 
studies linking mercury amalgam to specific diseases, the NIDCR 
research data base reveals that it has funded 543 studies 
related to amalgams since 1972. I have reviewed 222 studies in 
the data base. That represents the last 10 years' worth. These 
222 studies, paid for with taxpayer dollars, only 1 of those 
could I find that has ever been published, 1 out of 222.
    Is the NIDCR sitting on a mountain of evidence that mercury 
amalgams are safe and effective? I think not. It would have 
been published in a timely manner and they would have been 
highly publicized by the ADA.
    I urge this committee to request copies of all 543 of these 
research studies, not the abstracts, the studies that were 
actually done by the scientists and provide mercury-free 
advocates copies of these.
    Finally, I would like to show you a prime example of the 
misleading information produced by the ADA for use by 
practicing dentists. Off to my right is the display of a 
brochure that mercury-using dentists buy from the ADA 100 or 
500 at a time. On the front you can see that it says, ``Is It 
Safe: Silver Fillings,'' and it continually throughout the 
brochure refers to silver fillings.
    It posits questions that a patient might ask, and then it 
gives the answers which are the ADA answers. In the materials 
that I have provided to the committee I have a rebuttal to each 
one of those answers, and I also have their questions as well, 
and I have cites to each of the references that I used to do 
that.
    In conclusion, the scope of this committee includes human 
rights. I submit that the continued use of mercury amalgam with 
the complicity of Federal agencies is a violation of the 
Nuremburg Code which prohibited human experimentation without 
informed consent. The code has been determined by the National 
Institute of Health to be applicable to its actions, and that 
includes the NIDCR. It is disturbingly appropriate to apply the 
code to the amalgam issue.
    I urge you to continue to investigate this important health 
issue. Thank you.
    [The prepared statement of Ms. Duffy follows:]

    [GRAPHIC] [TIFF OMITTED] T7704.095
    
    [GRAPHIC] [TIFF OMITTED] T7704.096
    
    [GRAPHIC] [TIFF OMITTED] T7704.097
    
    [GRAPHIC] [TIFF OMITTED] T7704.098
    
    [GRAPHIC] [TIFF OMITTED] T7704.099
    
    [GRAPHIC] [TIFF OMITTED] T7704.100
    
    [GRAPHIC] [TIFF OMITTED] T7704.101
    
    [GRAPHIC] [TIFF OMITTED] T7704.102
    
    [GRAPHIC] [TIFF OMITTED] T7704.103
    
    [GRAPHIC] [TIFF OMITTED] T7704.104
    
    [GRAPHIC] [TIFF OMITTED] T7704.105
    
    [GRAPHIC] [TIFF OMITTED] T7704.106
    
    [GRAPHIC] [TIFF OMITTED] T7704.107
    
    [GRAPHIC] [TIFF OMITTED] T7704.108
    
    [GRAPHIC] [TIFF OMITTED] T7704.109
    
    [GRAPHIC] [TIFF OMITTED] T7704.110
    
    [GRAPHIC] [TIFF OMITTED] T7704.111
    
    [GRAPHIC] [TIFF OMITTED] T7704.112
    
    [GRAPHIC] [TIFF OMITTED] T7704.113
    
    [GRAPHIC] [TIFF OMITTED] T7704.114
    
    [GRAPHIC] [TIFF OMITTED] T7704.115
    
    [GRAPHIC] [TIFF OMITTED] T7704.116
    
    [GRAPHIC] [TIFF OMITTED] T7704.117
    
    [GRAPHIC] [TIFF OMITTED] T7704.143
    
    [GRAPHIC] [TIFF OMITTED] T7704.118
    
    Mr. Burton. Thank you very much. Ms. Duffy, those studies 
that you referred you, that you could only see one, you only 
got one?
    Ms. Duffy. There was only one that had actually been 
published in Pub. Med.
    Mr. Burton. Are those pretty voluminous, those studies?
    Ms. Duffy. Actually, I can get you a list of all of those 
studies, and I actually have provided those to your assistants 
at this time.
    Mr. Burton. I understand, but what I was wondering is, you 
said you thought we should get all those several hundred 
studies, and I just wondered how voluminous they are, because I 
don't know that I have enough staff to go through all those. 
[Laughter.]
    Ms. Duffy. But, you know what, if you got those, we would 
find some staff out here to go through them.
    Mr. Burton. All right, you tell us what studies we should 
be asking and we will try to get the committee and the full 
committee to subpoena those, ask for them first, subpoena them 
if we don't get them, and if we have to, we will figure out 
another way to get them, but we will figure out a way to get 
them.
    Ms. Duffy. I will be very happy to do that, and that will 
happen next week.
    Mr. Burton. OK.
    Ms. Watson. May I just add, too----
    Mr. Burton. Yes.
    Ms. Watson [continuing]. In listening to Dr. Eichmiller, he 
said there is some vagueness about this scientific research. 
What I would like to do, once we receive those, is go through 
and publish that material, so that there will be empirical 
evidence to support the claim. Apparently, you are telling us 
only one has been made public. I would like to see what was in 
those others and why they weren't made public. So, if the Chair 
agrees, I think once we go through and look very closely at the 
data there, then we should make it public.
    Mr. Burton. Well, we definitely will do that----
    Ms. Watson. Yes.
    Mr. Burton [continuing]. Representative Watson, and we will 
have a report that will go into all this before this is over.
    Ms. Watson. And let's do a big press conference.
    Mr. Burton. We will probably do that, too.
    Ms. Watson. Yes.
    Ms. Duffy. OK, this will be very important for the FDA, 
which is planning to have another dental panel before they 
classify mercury amalgams and have a rule on that. So this body 
of evidence would obviously be relevant.
    Mr. Burton. Well, we will try to make sure that the FDA and 
HHS and CDC and all of them hear from us, I promise you.
    Ms. Duffy. Thank you.
    Mr. Burton. They know we are here. [Laughter.]
    Ms. Duffy. Thank you.
    Mr. Burton. I promise you they know we are here.
    Mr. Carlton.
    Mr. Carlton. Mr. Chairman, thank you. I am Emmitt Carlton. 
I am immediate past president of the Virginia NAACP. The NAACP 
has endorsed the Watson/Burton bill and similar State bills. I 
am honored to appear in front of the lead sponsors of this 
bill, Chairman Burton and Ranking Member Watson. The NAACP 
salutes you for your national leadership. I am especially happy 
to be here, Mr. Chairman, since I am from Indianapolis.
    We learned a lot about the so-called ``silver'' dental 
fillings. They are about 50 percent mercury. We have learned 
that mercury is toxic, that it is a neurotoxin. Because mercury 
is neurotoxic, the development of the brains of children are 
particularly at risk as are pregnant women and children; that 
mercury in health care is being banned or phased out of almost 
all health care uses; that mercury fillings are toxic material 
going into the mouth and a hazardous waste coming out; that 
toxic mercury vapors emanate from the fillings; that the FDA 
has never approved mercury dental fillings as being safe, even 
though you would think so from looking at the ADA's brochure 
they passed out.
    We have learned that the Government of Canada recommends 
that children and pregnant women not receive mercury fillings. 
One would think that we, as Americans, given Canada's decision, 
would have a choice not to get mercury fillings, but, in 
general, Medicaid requires dentists to put mercury back in 
children's bad teeth, and so does the Bureau of Indian Affairs. 
Poor children still get mercury fillings or they get no 
fillings at all.
    Is high cost the reason why our children do not have a 
choice in dental fillings? Probably not. In ongoing price 
surveys of 300 cities you can find on a great Web site called 
bracesinfo.com, a pattern is clear. For permanent teeth, one-
surface fillings, mercury fillings cost a little more than 
resin fillings, and generally children only need one surface 
filling. For baby teeth, the cost of mercury fillings is a 
little less than resin, but we must ask, why do we even allow 
mercury to go into baby's teeth?
    One possible reason for continuing to use mercury fillings 
may be dental convenience because the dentist can do the 
procedure for mercury fillings a little faster, 2 minutes 
faster, we learned in some State testimony.
    Another possible reason is inertia. Mercury fillings have 
been the most common filling for a long time. Or there may be 
another reason, callous indifference to the poor children of 
America.
    As we have learned from Ranking Member Watson, there is a 
lot of action going on at the State level in the Medicaid 
policy: mercury fillings or no fillings. State Representative 
Karen Johnson, Republican of Arizona, Assemblyman Jerome 
Horton, Democrat of California, have both introduced bills to 
stop their States from dictating that mercury goes into 
children's mouths.
    Obviously, we are on the same panel with former Maine 
Senate president Mike Michaud. He talked about his work. 
Obviously, he is now in Congress. It is also a pleasure to be 
here on this panel with Dr. Yokoyama and Ms. Duffy.
    I am pleased to inform the subcommittee that these consumer 
choice changes are favored by many in organized dentistry. The 
National Dental Association, the largest association of 
African-American dentists, has testified in favor of changing 
Medi-Cal to allow choices for the consumer. The California 
Dental Association, the largest State affiliate of the ADA, 
testified for the Horton bill in California. The International 
Association of Oral Medicine and Toxicology, the American 
Academy of Biological Dentistry, both National Associations of 
Mercury-Free Dentists have been working as well on the issue.
    We commend the dental groups and individual dentists who 
want low-income consumers to have choices the rest of us have. 
So we want to work with those who will increase the number of 
dentists that serve the poor. We want to work to change the 
Medicaid system, the third-party payment system, at the bottom 
of the economic realm, to spur changes in the third-party 
payment system in general, including private insurance and 
public employee insurance. The NAACP resolution endorses 
changing the third-party payment system on fillings so 
consumers have a choice and so all dentists may participate.
    Finally, we want to create a system that is more fair to 
dentists. The time for transition out of mercury fillings is 
now. We don't want to punish or straitjacket our dentists. We 
want a payment mechanism so that dentists can fully participate 
in the transition to mercury alternatives.
    In summary, don't leave poor children behind. We don't want 
a two-tiered system that leaves mercury fillings on Indian 
reservations, in the inner cities, in the barrios and 
Appalachia. All of America's children deserve what Canada's 
children and Sweden's children, and increasingly America's 
middle-class children, get: a mercury-free childhood. It is 
time to offer alternatives to mercury fillings for all 
Americans as the first step toward ending their use once and 
for all.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Carlton follows:]

    [GRAPHIC] [TIFF OMITTED] T7704.119
    
    [GRAPHIC] [TIFF OMITTED] T7704.120
    
    [GRAPHIC] [TIFF OMITTED] T7704.121
    
    [GRAPHIC] [TIFF OMITTED] T7704.122
    
    [GRAPHIC] [TIFF OMITTED] T7704.123
    
    Mr. Burton. Thank you, Mr. Carlton. One of the things you 
said, Mr. Carlton, that stuck with me was that you said the 
mercury fillings are less expensive?
    Mr. Carlton. We have seen on this Web site in some cases 
they are less; in some cases they are more. We were surprised 
by that. We thought that in baby teeth, basically, less; with 
adult teeth, basically, there is a price difference.
    So the only thing we were trying to illustrate is it is not 
simply a price thing, and maybe it takes longer to fill them, 
and there are multiple reasons why there is some opposition.
    Mr. Burton. But, Dr. Yokoyama, you are a dentist.
    Dr. Yokoyama. Yes.
    Mr. Burton. If the cost is very similar to, say, composite 
fillings or something else, why would you use mercury?
    Dr. Yokoyama. That is a good question.
    Mr. Burton. I mean, why is the ADA fighting so hard, if it 
is not an economic issue?
    Dr. Yokoyama. It is twofold really. I think it is an 
economic issue. It is also a convenience----
    Mr. Burton. Well, how is it an economic issue? Can you tell 
us?
    Dr. Yokoyama. Well, I am unfamiliar with the information 
that was just given about the cost. I am not familiar with the 
exact cost compared throughout the United States, but I can say 
that economically it is common knowledge in dentistry that a 
composite filling will cost more than a mercury filling because 
it is more difficult to do.
    The degree of difficulty really comes from perhaps 
familiarization with the materials. It appears that, as you 
familiarize yourself more with the composite materials, it 
becomes less of a factor. So I will say that familiarization 
and ease of placement might make an amalgam less expensive at 
this time, but as we transition, the amount of added difficulty 
might become much less.
    Mr. Burton. What I can't understand--and I am not going to 
ask a lot of questions of this panel because I think you have 
acquitted yourself very well in your statements, but what I 
can't understand, if it is not a major economic factor, then 
why in the world is the ADA fighting this so much? I mean, they 
know that mercury is toxic. They know there is a risk. They 
know that they are probably looking down the barrel of a gun at 
some point. Why in the world--the logic alludes me. Can you 
explain that to me?
    Dr. Yokoyama. That is a rhetorical question. I do not know 
myself.
    Mr. Burton. Did that guy leave that represents them? He 
did? The heat was on. [Laughter.]
    One second. You haven't been sworn in. Who are you, sir?
    Mr. Lorscheider. Dr. Lorscheider.
    Mr. Burton. Oh, I am sorry. You were not at the table.
    Mr. Lorscheider. I was going to answer the question which 
you posed, Congressman.
    Mr. Burton. OK, go ahead real quickly, sure.
    Mr. Lorscheider. Though I am not a dentist, I have had this 
explained to me by----
    Mr. Burton. You look like you are choking a chicken or 
something. [Laughter.]
    Mr. Lorscheider. Though I am not a dentist, I have had this 
explained to me by a couple of dentists at two different dental 
schools, and the issue really comes down to this. The examples 
I will use are just very simple, round figures, and any dentist 
here can correct me on this.
    But if you go to a dentist and ask for a silver filling, 
everything is predicated on chair time, and it is going to take 
the dentist perhaps 4 minutes to put that amalgam filling in, 
remove the old one, put a new one in, or drill out some of the 
tooth, prepare it, and put the filling in. For that, the charge 
might be $100.
    Now if you, instead, say to the dentist that you would like 
a composite filling of some sort, glass ionimer or some other 
material, your first visit to the dentist can take as long as 
30 minutes because you are going to be in the chair while the 
tooth is excavated, and then a silicon rubber impression mold 
is made of that excavation in order to prepare a casting. Then 
you will go back a second time for about 10 minutes while the 
dentist removes the temporary filling that he put in, while he 
then cements in the casting and burnishes it, and so forth, to 
get the occlusal bite quite clear.
    Now, by rights, since the dentist has now invested 40 
minutes of chair time into the preparation of that tooth, if he 
charged you $100 for 4 minutes of time for an amalgam, 
theoretically, he should charge you $1,000 for 40 minutes of 
chair time. But what is going to happen, if he charges $1,000 
for 40 minutes of chair time, you are soon not going to go back 
to that dentist. So the dentist ends up charging about $300 to 
$350 for that casting, that composite casting, that he has put 
in the tooth.
    So if you rate it all on the basis of per-unit-chair-time, 
the dentist has lost money by putting that composite in versus 
the amalgam. I have had two dentists, one at Oregon and at 
Illinois, explain this to me because they knew I wouldn't 
understand the business of dentistry. But this is really the 
bottom-line issue. It is an economic issue for dentists.
    Mr. Burton. Let me ask one more question and then I am 
going to yield to Ms. Watson. And that is, Dr. Yokoyama----
    Dr. Yokoyama. Yes?
    Mr. Burton [continuing]. You are a non-mercury dentist?
    Dr. Yokoyama. Yes.
    Mr. Burton. Can you tell us from your experience the 
difference in time and cost as relates to what the gentleman 
just said?
    Dr. Yokoyama. Time and cost, I can only estimate, as I 
really haven't done mercury fillings in 10 years. So I don't 
know what I would charge, even if I did them right now.
    But the fee that I charge is substantially more for a 
composite filling when I do a direct composite filling. That 
is, a casting, as Dr. Lorscheider is mentioning, which is 
different--I mean that is a totally different procedure than to 
try to refill a tooth. You can fill it with mercury amalgam or 
you can fill it with composite.
    I suppose, as my skills get better, the time becomes more 
like the time that I would spend trying to fill a tooth with 
amalgam versus composite, but I know that it is a technique-
sensitive material and it takes longer to do.
    Mr. Burton. OK, thank you very much.
    Dr. Yokoyama. Economically, I am not sure how that plays 
out, but it is more difficult.
    Mr. Burton. I just was wondering what the primary reason 
was, if the cost of the materials was pretty much the same, why 
there would be such opposition to that.
    Representative.
    Mr. Michaud. Yes, Mr. Chairman, all I can say is I know, 
when I put the first bill in--and, mind you, the original bill 
I submitted was just to inform about the health effects--at 
that time a lobbyist told me privately, when I was really 
amazed that they were opposed, let alone it wasn't to ban it or 
anything, just to get the information out there. The concern 
was that if they admit that there might be some toxics put into 
the mouth, the concern was liability and later on down the road 
suits brought against the dentist for putting mercury fillings 
into the mouth. That might be one of the reasons why they are 
so adamant about any legislation dealing with mercury amalgams.
    Mr. Burton. Well, I think as time goes by, with new 
scientific evidence and new information coming out, through 
your efforts or Ms. Watson's, or somebody else, I think that 
risk becomes greater and greater. It seems like they would get 
on with it if they could see the inevitable.
    Ms. Watson.
    Ms. Watson. I want to first say to the Honorable Mike 
Michaud, thank you so much for coming and sharing your 
experience with us. Would you tell my good friend, John Martin, 
that I said hello? We have worked together on other issues, and 
I hope to work through you and him and people like yourself 
around this country on furthering the kind of legislation that 
in the long run will benefit the health of Americans. So thank 
you very much.
    Dr. Yokoyama, I want to thank you for taking your own time 
to come here. I know what a difficult task you have. May I ask 
you, what brought you to the position of being a mercury-free 
dentist?
    Dr. Yokoyama. Well, when I was working as a hospital 
dentist, I would use amalgam almost primarily for the patients 
that were developmentally disabled, and we would bring them 
into the OR and do all of their dentistry all at one time. I 
could see that this was doing a lot of amalgam all at once. My 
feelings slowly over the years became more--I became more aware 
of the problem and saw that, as I was doing this large amount 
of amalgam, that I felt that it was not doing the patient the 
justice that they deserved and I stopped doing it.
    I have evolved over time to make my practice completely 
mercury-free. There are several other reasons for changing in 
myself, and I could go into that, but I think you are asking me 
what brought me to do this, and that is the reason.
    Ms. Watson. I am very interested in the fact that you were 
working on developmentally disabled young people.
    Dr. Yokoyama. Yes.
    Ms. Watson. And I have my own theories, too. As a school 
psychologist in my other life, I would walk into schools in the 
lower-socioeconomic areas and the teacher would say, ``Every 
child in here is mentally retarded. I want these children 
tested.'' She would hand me 36 of their folders.
    And I said, ``Well, why do you think so?'' ``Well, it is 
the way they speak. They speak in two-word sentences.'' I said, 
``You would, too, if it is: `Get up,' `Shut up,' `Sit down,' 
`Eat up.' '' [Laughter.]
    And I thought about it, why should these children have 
problems with their academic studies? What are the 
circumstances in their environment that could attribute to 
that? I mean, I am talking about years ago in the late sixties 
and early seventies, where we found, one, it was the lead in 
paint on the cribs, and the kids would get up and teething, 
chew, and get the lead in their bodies.
    Then we found out in buildings--you know, in Los Angeles we 
throw uprisings now and then--and we found that new 
construction had within it asbestos. I was horrified. I had a 
crew out there cleaning up during the 1992 uprising, and 
someone ran to me and said, ``There is asbestos in the air.''
    So when you put all of these together and then when we know 
there is mercury involved in what goes in our mouth, then I can 
understand why our children are not functioning up to par.
    So that was my intent: to inform people as to what might 
impact on the health of themselves and their children.
    Putting together this fact sheet seems to be a task that 
only a nuclear physicist could do. [Laughter.]
    Can you tell us--and I was very impressed by you on point 
one, explained point two very concise, very clear, and those 
kids that I had to test would understand. If you could, what 
would you have in your brochure that would be informative to 
patients?
    Dr. Yokoyama. Well, I did mention that I really feel that a 
caution or an advisory is warranted for pregnant woman and 
children, young children.
    Ms. Watson. Similar to what we do with cigarettes?
    Dr. Yokoyama. Similar, yes.
    Ms. Watson. What a concept.
    Dr. Yokoyama. That is the primary thing that I am right now 
working toward in California. Second, I will say that I applaud 
Mr. Michaud's efforts in Maine because I really think the 
consumer-friendly look and readability of that document far 
outstrips the California document that was basically made for 
dentists' consumption.
    So, as we develop a consumer-friendly, readable fact sheet, 
I would like two things. I would like to update what we know 
now as to the science, the things that have come up recently 
since 2001, and I would also like to make it much more a 
brochure that someone could pick up and say, ``Gee, I didn't 
know that. I'm glad I saw that in here.''
    Ms. Watson. Dr. Yokoyama, is there a fair factor here with 
dentists with the gag order and in the Code of Ethics? Was that 
a fair factor? Was that intimidation? And then I am going to go 
to Mrs. Duffy.
    Dr. Yokoyama. OK. You have pressed a point and----
    Ms. Watson. I intended to. [Laughter.]
    Dr. Yokoyama. Yes. It is hard for me to talk about 
intimidation, but I do feel that I am not supported--or how 
should I say this?
    Ms. Watson. Just say it.
    Dr. Yokoyama. I love the support and the feeling here in 
this chamber today because that is giving me so much more a 
good feeling toward going out and doing the work that I am 
doing. So I will just say that.
    Ms. Watson. Thank you.
    Mr. Burton. Would you yield?
    Ms. Watson. Sure.
    Mr. Burton. I would like to pin this down a little bit.
    [Applause.]
    Mr. Burton. Are you saying that the Dental Association or 
organization in California is not that supportive? [Laughter.]
    Dr. Yokoyama. Well, I think that is their position, yes.
    Mr. Burton. Yes. OK, thanks.
    Ms. Watson. If I might just say that we will back you up 
with anything that you need.
    Dr. Yokoyama. Well, I appreciate that. Thank you very much.
    Ms. Watson. I still am very close to people in California, 
and if they try to come after you, just let us know. 
[Laughter.]
    Dr. Yokoyama. Thank you.
    [Applause.]
    Ms. Watson. Mrs. Duffy, I must commend you--see, it takes 
one person, just one person, a citizen like yourself, who 
realized something was wrong, and you have made a difference. 
You have raised an issue that has been bothering me for a long 
time, and that is a provider's first amendment rights. How 
could you ever tell a certified board member who is a doctor, a 
dentist, a chiropractor, a whatever, that they could not 
explain to their patients the truth about something, a 
procedure or an ingredient in whatever they put in a product, 
or what is in the medication they provide to you?
    Now the Chair of this committee is very concerned about 
inoculations, vaccinations, and so on. I have warned a lot of 
people in my district not to get the flu vaccine, not to get 
the chicken pox vaccine, because you are getting a little bit 
of the germ, the virus. If your health is not good, put it 
together. You know, connect the dots.
    Not everyone can tolerate. If you are allergic, like I am, 
to many, many things, then there are certain things that I 
cannot put into my body. Through the process of trial and 
error, I found that out, and I finally got medical attention. 
You know, use a histamine. That wasn't it. I was allergic to 
certain foods.
    So, anyway, first amendment rights, and you went that 
route, and I would like you to explain a little more because I 
think you have hit on something. I am going to raise these 
questions with the ADA.
    Is anyone here from the ADA who wants to admit that they 
are here from the ADA? [Laughter.]
    I wish the doctor had stayed in the room. But I think there 
is a problem, and if you have gone through your medical 
training and you know the scope of practice, why they would not 
allow you to tell your patients just simple information. I 
think it is a violation of first amendment rights. You have 
pursued this, and I would like you to elaborate just a little 
more.
    Ms. Duffy. OK. One of the things that the ADA has done here 
is to put the dentists in a horrible position because, if the 
dentists don't give the information to the patients that they 
need to give--``Here are the risks for this procedure; here are 
the alternatives to this procedure''--and something goes awry, 
that dentist is going to be sued for failure to warn. I mean 
that is a real typical kind of a case that you are going to 
have.
    And, yet, the ADA is telling dentists: There are certain 
things we don't want you telling your patients. So they have 
interfered in really a sacrosanct fiduciary relationship 
between a patient and their doctor.
    On the other hand, the ADA--and it has been sued around the 
country, and it files Motions to Dismiss, and it says: We 
should not be in this lawsuit because we didn't place mercury 
amalgams in these patients' mouths. You shouldn't be looking at 
us. Basically, they are saying everything except: Go after the 
dentist; don't go after us.
    So they really are not friends to the dentists either. I 
think that the sooner the dentists realize that, that they will 
actually embrace your bill here federally; they will embrace my 
bill in Oregon, and they will embrace bills in every State and 
use it as cover to get out from under using amalgam. They will 
just say, ``It's not legal anymore. We're not using it 
anymore.'' And they are really foolish not to do that.
    Ms. Watson. Thank you so much.
    And, Mr. Carlton----
    Mr. Burton. Excuse me. Would the gentlelady yield?
    Ms. Watson. Yes.
    Mr. Burton. First of all, I have to leave, and Ms. Watson, 
although she is in the other party, she is going to chair the 
rest of this meeting, and that is rare. [Laughter.]
    Ms. Watson. We work together.
    Mr. Burton. That is rare, but I have great confidence in 
her.
    [Applause.]
    Ms. Watson. Thank you. Thank you.
    Mr. Burton. If you guys keep that applauding up, I may not 
leave. [Laughter.]
    But let me just say that I really appreciate your patience 
here today, and I appreciate your testimony. We are going to 
continue this fight, as I said, with Ms. Watson for many 
months, maybe years to come, and we will get the job done 
eventually. So thank you very much, and she will take care of 
you for the rest of this.
    Ms. Watson [assuming Chair]. Thank you so much, Mr. 
Chairman.
    Mr. Carlton--Congressman Michaud, do you have to leave now? 
If you do, please feel free to get up and leave. We appreciate 
your spending the time with us.
    Mr. Michaud. Well, thank you very much. I do have another 
meeting I have to run off to. I really appreciate it, and thank 
you very much once again for inviting me here.
    Ms. Watson. We appreciate the time you spent with us.
    Mr. Michaud. Thank you.
    Ms. Watson. Yes.
    [Applause.]
    Ms. Watson. Mr. Carlton, your testimony was so cogent 
because you are getting to something that people want to avoid, 
and that is, when we talk about the poor and we talk about our 
ethnic communities, they are the ones that really suffer. What 
we are finding, we just started a National Diabetic 
Association, and the reason why we did this, because their ADA, 
American Diabetic Association, had the background, the 
expertise, the products, and so on, in my area, but the people 
who seemed to be most afflicted by diabetes/hypertension are 
the last to know what the ADA offers.
    I think you put your finger right on it. That is why I am 
directing this to you. What can we do to highlight the fact 
that our communities are being underserved, and we know that. 
We have seen studies that show in the African-American 
community and also in the Hispanic community people are 
underserved, and the outreach just doesn't go deep and far 
enough into the community.
    Can you give us some suggestions or advice----
    Mr. Carlton. Yes.
    Ms. Watson [continuing]. As to what we can do?
    Mr. Carlton. Thank you, ranking chairman, Congresswoman 
Watson.
    The NAACP salutes this committee, the subcommittee, and 
salutes you in particular, for your putting a spotlight on a 
very serious issue. A lot of people don't know anything about 
this. They get their dental fillings. They think it is the only 
thing they have; they don't have any consumer choice.
    So when Members of Congress sponsor legislation, especially 
legislation that runs into opposition, we are very grateful 
because it allows us to rally around you and to support you and 
say, ``Look, this is the sort of thing we ought to be doing in 
health care.''
    The NAACP has been doing this for a long time. In fact, I 
think back in the 1930's Dr. Montague Cob set up the first 
subcommittee of the NAACP. Access to health care has always 
been an issue. I mean, we have done four major health care 
conferences in the last 10 years, hooked up with major 
organizations, started health committees at the branch level, 
because if we want to get the information out in the community, 
you have to do it at the branch level. That is what I did when 
I was a branch president. We had a health committee to get the 
information out there.
    There are always things that affect people 
disproportionately in poor communities and ethnic communities. 
We just have to keep working and getting the word out because 
that is really the first barrier. If people know, we have 
informed consumers of choice, that is the first stage. If you 
get funding after, that is even better.
    I know President Fume put out a call to every NAACP branch 
in the country a couple of days ago, a minority AIDS/HIV 
initiative, to fully fund that in this Congress. So, again, 
thank you for your efforts.
    Ms. Watson. Thank you so much for being here.
    Both panels, are there last-minute statements or words you 
would like to leave with us? If so, just state your name into 
the microphone, come up to this mic. Dr. Haley.
    Mr. Haley. Yes, my name is Boyd Haley, chairman of 
chemistry, University of Kentucky.
    What I would like to make a comment was with the safety of 
dental amalgams and looking at people that were exposed 
environmentally. The change is that, as we age, the compound 
that removes mercury from the body called glutathione drops 
dramatically after the age of 50 and it keeps going down. So a 
person that is responding well and taking care of the mercury 
toxicity from dental amalgams when they are 30, 40, and 50 
years old runs into a different situation as they age or as 
they become ill, and the levels of glutathione scientifically 
have been proven to drop after that, and those people lose 
their protection against removing mercury. It drops 
dramatically. And when they reach the age of 60-65, they are 
much more susceptible to mercury toxicity than they are when 
they are 40.
    So while they can say that amalgams are safe and we put 
them in people and they have no problems, I think that they 
really fall flat on their faces when they go and they look at 
the percent of glutathione drop in an aged person versus a 
young person and saying that these people still are safe from 
amalgam exposure.
    Ms. Watson. Thank you so very much.
    I am also thinking about looking at nickel in jewelry that 
we wear next to our skin. I am very highly allergic to nickel 
and it is in most cheap jewelry.
    Somebody is pointing to their mouth. Did you want say 
something?
    Ms. Duffy. And braces for children contain nickel.
    Ms. Watson. Yes. So we are going to look into that, too.
    I just refuse to accept the notion that African-American 
children are retarded or Hispanic-American children, or 
whatever. That has not been my experience as a teacher as well.
    So I have taken a personal look and been on a personal 
mission to gather evidence to show why children have such a 
difficult time when they live in very poor areas and 
overcrowded areas and live together. So I carried a bill when I 
was in the senate that said, ``Violence is a health condition'' 
because I find that when children live in a violent 
environment, it affects their ability to deal with the 
concrete.
    So, I mean, there are just so many things, so many factors, 
that we hope 1 day to remove, and there are environmental 
conditions that we hope to address as well. So this is my 
mission. This is the one I will be on as long as I am in public 
office.
    I want to thank all of you who have come in and shared with 
us your expertise. It is very important that you do not give up 
the fight, and it is a fight. It is a challenge.
    You have to understand, we live in a capitalistic society, 
and all that we do is framed within that box. So we have to get 
around that. We have to appreciate what factors in the 
environment, what factors that go into our bodies are part of 
that environment, and we can't just focus on the bottom line.
    I really want to say in California that we have dealt, 
through propositions, with these kinds of issues. So we looked 
at the herbicides and pesticides and other toxic substances 
that we use in our environment. We listed them, and mercury was 
at the top.
    So we have been struggling. It is not easy because you are 
developing policy. Dr. Yokoyama, I just want to tell you, don't 
give up; don't get deterred, but I don't think he is. I don't 
think he is. [Laughter.]
    Dr. Yokoyama. I'm inspired, let me say.
    Ms. Watson. Because, as I said, it took us 14 years on the 
smoking issue, smoking policy, anti-smoking policy, and I used 
to carry--we had propositions passed--and I used to carry the 
budget line for the media, and the tobacco industry came in 
with an open checkbook. Anybody that was on foot, even in a 
wheelchair, with blood running through their veins was given a 
blank check to lobby me. [Laughter.]
    Very interesting. When I write my book--but we prevailed. 
As you know, California was the first State to say: No smoking 
in our airspace. It spread across the country. Now it has 
spread around the globe.
    So, as I said to you, Ms. Duffy, you know, it just takes 
one person and a team of people and continuing on their mission 
to bring it to fruition.
    So, with that, I want to say that we are going to work on 
this bill. I have a good partner in Congressman Burton. He is 
very committed. His staff is committed, and we are not going to 
give up, even if we have to subpoena the ADA in.
    With that, thank you very much. Have a good evening and 
good night.
    [Applause.]
    Ms. Watson. And I will now adjourn this meeting. Thank you 
again.
    [Whereupon, at 6:11 p.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T7704.124

[GRAPHIC] [TIFF OMITTED] T7704.125

[GRAPHIC] [TIFF OMITTED] T7704.126

[GRAPHIC] [TIFF OMITTED] T7704.127

[GRAPHIC] [TIFF OMITTED] T7704.128

[GRAPHIC] [TIFF OMITTED] T7704.129

[GRAPHIC] [TIFF OMITTED] T7704.130

[GRAPHIC] [TIFF OMITTED] T7704.131

[GRAPHIC] [TIFF OMITTED] T7704.132

[GRAPHIC] [TIFF OMITTED] T7704.133

[GRAPHIC] [TIFF OMITTED] T7704.134

[GRAPHIC] [TIFF OMITTED] T7704.135

[GRAPHIC] [TIFF OMITTED] T7704.136

[GRAPHIC] [TIFF OMITTED] T7704.137

[GRAPHIC] [TIFF OMITTED] T7704.138

[GRAPHIC] [TIFF OMITTED] T7704.139

[GRAPHIC] [TIFF OMITTED] T7704.140

[GRAPHIC] [TIFF OMITTED] T7704.141

[GRAPHIC] [TIFF OMITTED] T7704.142


</pre></body></html>
